<html>
<title> - PROTECTING OUR COMMERCE: PORT AND WATERWAYS SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



          PROTECTING OUR COMMERCE: PORT AND WATERWAYS SECURITY

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2005

                               __________

                            Serial No. 109-5

                               __________

       Printed for the use of the Committee on Homeland Security

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
21-863                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi 
Lamar S. Smith, Texas                Ranking Member
Curt Weldon, Pennsylvania, Vice      Loretta Sanchez, California
Chairman                             Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. DeFazio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, JR., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen, U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    40
The Honorable John Linder, a Representative in Congress From the 
  State of Georgia...............................................    40
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida...........................................    47

                               WITNESSES

Rear Admiral Robert Duncan, Commander Eighth Coast Guard 
  District, United States Coast Guard
  Oral Statement.................................................     3
  Prepared Statement.............................................     8
Mr. Jimmy Heidel, Executive Director, Warren County Port 
  Commission and Vice-President of the Vicksburg-Warren County 
  Chamber of Commerce
  Oral Statement.................................................    12
  Prepared Statement.............................................    15
Ms. Cynthia Swain, Director of Safety and Security, Port of New 
  Orleans
  Oral Statement.................................................    17
  Prepared Statement.............................................    20
Dr. Deirdre McGowan, Executive Director, Inland Rivers, Ports and
  Terminals Association
  Oral Statement.................................................    22
  Prepared Statement.............................................    23

                                APPENDIX
                   Material Submitted for the Record

Question and Responses for the Record of the Coast Guard.........    49

 
          PROTECTING OUR COMMERCE: PORT AND WATERWAYS SECURITY

                              ----------                              


                        Tuesday, March 22, 2005

                          House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:15 a.m., at the 
Vicksburg Convention Center, 1600 Mulberry Street, Hon. 
Christopher Cox [chairman of the committee] presiding.
    Present: Representatives Cox, Linder, Thompson, Etheridge 
and Meek.
    Chairman Cox. The House welcomes you to the formal portion 
of the first field hearing of the Committee on Homeland 
Security of the United States.
    Now we have the Mayor from Vicksburg, Mississippi.
    Thank you for inviting U.S. here to hold this important 
hearing which will examine the security of our ports.
    I would like to welcome the Rear Admiral Robert Duncan, 
Commander of the Eighth Coast Guard District; Mr. Jimmy Heidel, 
director, Warren County Port Commission, and vice president of 
the Vicksburg-Warren Chamber of Commerce; Ms. Cynthia Swain, 
director of safety and security, Port of New Orleans; and 
Deirdre McGowan, Ph.D. executive director, Inland Rivers, Ports 
and Terminals Association.
    Thank all of you in advance for coming here to discuss 
these important issues and to answer the committee's questions. 
We are here today to the discuss improving the security of the 
United States ports, and the issue of port security has been 
widely talked about in the media. And the issue of security in 
our inland rivers has not received as much attention. But, 
today, we sit here along the banks of the Mississippi River, 
which links with major inland ports and provides access to more 
than 1,800 rivers in 21 States. We can see that this is an 
important river, and our inland waterways are vital for the 
United States Maritime Transportation.
    Since the tragedy of September 11, 2001, the departments of 
Federal and private entities have worked on security for our 
Nation from the terrorists. The Federal Government has been 
dispersed, and other local facilities have been hardened. We 
have to ask ourselves, what are the goals that we are seeking 
to achieve to end terrorism and how best can we achieve them? 
We must truthfully understand the previous terrorist attacks 
that face our ports in the United States and then focus on our 
collective efforts. If we were to try to protect against every 
potential attack, we will disperse our efforts, and our 
attention will be late, and we might end up helping absolutely 
nobody.
    The terrorist attack, it could be nuclear and harmful, 
biologically. It could be as simple as smuggling a weapon or 
such things like material through America borders. The extent 
to which the United States ports and waters can help is to 
articulate what must be understood about the threats from the 
ports. And the ports themselves must be completely aware of 
homeland security and take it seriously, these threats. And how 
the Department of Homeland and others are responsible for 
working constructively with each other and to prevent a 
terrorist incident in America.
    Once again, I would like to thank the most Honorable Bennie 
Thompson for welcoming US and our witnesses for appearing for 
US today, and we look forward to your testimony.
    Mr. Thompson. We would like to thank Warren County for all 
the hospitality that they have shown my colleagues over the 
last 2 years. And we are thankful for the relationship and 
willingness to hold the first hearing of the House Committee on 
Homeland Security here in Vicksburg, Mississippi.
    And I would like to thank everybody who is in attendance 
today on our ports and waterways.
    September 11th is referred to as a wake-up transition. As I 
ride on our shores, I see how terrorists pose a threat to our 
Maritime. And then with the USAA October of 2000 incident, 
killing of 1,700 sailors, we, in Mississippi, understand how 
real the threat is. And we witnessed some of this when the USAA 
was shipped to Pascagoula to be repaired. And we also witnessed 
this with the 9/11 ambush.
    And some good steps have been taken to protect U.S. from 
terrorist attempts by improving our regulations employed by the 
Coast Guard. The Coast Guard has taken some steps in improving 
our ports. And all of these regulations, however, have not 
resulted in smooth sailing, but there is an attempt to complete 
those that are mandated. Compliance with these regulations has 
been far more difficult to receive on our part. For example, 
the Coast Guard estimates we will spend $5.4 billion over the 
next 10 years to maintain security. Since 9/11, the wish has 
been to ask for more port security funding; by the end of this 
fiscal year, would have distributed 1715 to 40 to pay for 
security upgrades. However, this still falls short of what we 
need.
    On the Port of New Orleans, the lack has presented a 
problem with leaving the facility vulnerable to terrorist 
attacks and crime. In fact, it has left the port with, and I 
quote, four half gates, none of which are able to do what one 
gate should do completely. We should make sure that these funds 
are available to New Orleans and other communities. And we 
should welcome the Coast Guard for doing all that they could. 
They are not getting all they need to get the job done.
    Since 9/11, many homeland security departments have had 
larger increases in service budgets. The Coast Guard is 
operating with fleets of aircraft. Too few small boats and too 
few men and woman are protecting our ports for too long. The 
Coast Guard has done more with respect to safety, and our ports 
are going to remain secure.
    Mr. Chairman, I look forward to the testimony, and, again, 
I thank you for having this hearing in Vicksburg, and I look 
forward to your testimony.
    Chairman Cox. Thank you, Mr. Thompson.
    Chairman Cox. Does any other member wish to be recognized? 
If not, I will introduce our witness, Admiral Robert Duncan, 
Commander, Eighth Coast Guard District, United States Coast 
Guard and director of the Maritime Defense Administration.
    Admiral Duncan, thank you for being here. I appreciate your 
being here, and we want to talk about what are important issues 
that affect our ports and waterways.

  STATEMENT OF REAR ADMIRAL ROBERT DUNCAN, COMMANDER, EIGHTH 
        COAST GUARD DISTRICT, UNITED STATES COAST GUARD

    Admiral Duncan. Good morning.
    Mr. Chairman and distinguished members of the Committee. It 
is a pleasure to be here today to discuss the Coast Guard's 
role in enhancing the security of America's ports and inland 
waterways in order to facilitate the safe and efficient flow of 
commerce.
    On 9/10/01, our primary maritime focus was on the safe and 
efficient use of America's waterways. Since 9/11, we have made 
great progress in securing America's waterways while continuing 
to facilitate the safe and efficient flow of commerce. There is 
no doubt that work remains, but there is also no doubt that we 
continue to improve maritime homeland security each and every 
day, thanks in large part to the continued strong cooperation 
with the domestic and international maritime industry as well 
as many U.S., Federal, State and local agencies.
    Reducing Maritime Risk: The Coast Guards's overarching 
security goal is to prevent terrorist attacks within or 
exploitation of the U.S. maritime domain. Doing so requires a 
risk-based approach to identifying and intercepting threats 
well before they reach U.S. shores. We do that by using 
intelligence information and by conducting layered, multi-
agency security operations nationwide while strengthening the 
security posture and reducing the vulnerability of our ports, 
with particular focus on our militarily and economically 
strategic ports. Using threat, vulnerability and consequences 
as a general model is fundamental to managing risks associated 
with terrorist attacks while retaining our quality of life.
    The Eighth Coast Guard District: The Eighth Coast Guard 
District, headquartered in New Orleans, covers all or part of 
26 States throughout the Gulf Coast and heartland of America. 
It stretches from the Appalachian Mountains and Chattahoochee 
River in the east to the Rocky Mountains in the west, and from 
the U.S.-Mexico border and the Gulf of Mexico to the Canadian 
border in North Dakota, which included 15, 490 miles of 
coastline and 10,300 miles of inland navigable waterways.
    In a typical year, the men and women of the Eighth Coast 
Guard District are involved in more than 6,300 search-and-
rescue cases, saving 770 lives, assisting 7,900 mariners and 
saving $37.5 million in property. The district maintains 24,000 
aids to navigation, responds to more than 4,200 marine 
environmental pollution incidents and conducts more than 1,500 
law-enforcement boardings. The ports of New Orleans and 
Houston, located in the Eighth District, are two of the busiest 
shipping ports in the Nation, with more than 2 million barrels 
of oil and 1 million tons of cargo imported daily.
    Seventeen of the top 40 busiest U.S. ports by tonnage are 
located in the Eighth District. These ports are part of an 
international supply and delivery system that brings an 
extremely wide range of materials and goods into the country 
and exports an equally wide range of commodities from the 
United States. Imports include crude oil for our refineries, 
liquefied natural gas, LNG, bulk minerals and finished 
products. Exports include grains, refined petroleum products 
and chemicals, just to name a few.
    There are more than 6,500 oil and gas producing wells, 
along with 130 mobile offshore drilling units in the Gulf of 
Mexico that keep the district's Marine Safety program gainfully 
employed. Five of the top seven fishing ports in the country 
are located in the district. They account for nearly 40 percent 
of the catch of U.S. commercial fishermen.
    The Western Rivers consist of 41 rivers and lakes across 18 
States and encompasses the heartland of the United States. The 
Western Rivers centers on the Mississippi River and its major 
tributaries, including the Ohio, Illinois, Missouri, Arkansas, 
Tennessee and Cumberland Rivers, over 10,300 miles of navigable 
waterways. The States of Pennsylvania, Ohio, West Virginia, 
Kentucky, Nebraska, Tennessee, Indiana, Arkansas, Iowa, Kansas, 
Missouri, Oklahoma, Louisiana, Mississippi, Alabama, Illinois, 
Minnesota and Wisconsin are all part of my area of 
responsibility.
    The Western Rivers waterways are vital in moving bulk cargo 
and manufactured goods for foreign and domestic commerce. These 
rivers have provided a channel into the Nation's heartland, 
connecting the Gulf Coast with the coal and steel industries of 
Pittsburgh, Pennsylvania; and the grain exporters of the Twin 
Cities, Minnesota.
    Charged with protecting this swath of America's heartland 
are approximately 3,956 Active Duty and selected Reserve 
members geographically located in the district. There are also 
6,000 volunteer Coast Guard auxiliaries and 254 civilian 
personnel located in the district. I would specifically like to 
note that Coast Guard auxiliaries are playing an increasing 
role in maritime security by their assistance to local Captains 
of the Ports, COTPs. While unarmed and not performing any law 
enforcement missions, these citizens act as tremendous force 
multipliers and have proven themselves invaluable.
    Maritime Security for America's Heartland. The Coast 
Guard's strategy for maritime security consists of four primary 
pillars: Enhance maritime domain awareness; create and oversee 
a maritime security regime; increase operational presence; and 
improve response and recovery posture.
    While I will not detail all the Coast Guard is doing in 
support of this strategy, I would like to highlight a few 
issues specific to the Eighth District.
    Enhancing Awareness: Aligned closely to the ISPS code, the 
Maritime Transportation Security Act of 2002, MTSA, implements 
domestic regulations for U.S. vessels and U.S. port facilities 
mirroring those required for foreign vessels and foreign ports. 
This includes the establishment of maritime security, MARSEC, 
levels that correspond to the international system and 
correlate to the Homeland Security Advisory System, HSAS, used 
throughout the United States.
    Additionally, NTSA required the implementation of 
regulations requiring the use of Automated Information Systems, 
AIS, on all foreign flag and most U.S. flag commercial vessels 
transiting regulated Vessel Traffic Service areas. AIS allows 
the Coast Guard to electronically track the movement of vessels 
as they transit U.S. waters in U.S. ports.
    In the Eighth District, we have also installed additional, 
AIS tracking receivers on offshore oil production platforms in 
the Gulf of Mexico, GOM, in an initiative to further push out 
our borders. Much like the Distant Early Warning, DEW, system 
of the Cold War, this GOM ``DEW Line'' extends the Coast 
Guard's vessel tracking capabilities into the reaches of 
international waters, greatly improving maritime domain 
awareness. Other sensors will be added to the system.
    In 2002, the Eighth Coast Guard District and the State of 
Louisiana co-sponsored the Louisiana River Watch Program. Based 
on the tenets of the Neighborhood Watch Program, this awareness 
program asks those who work, live or recreate on or near the 
water to be aware of suspicious activity that might indicate 
threats to our country's homeland security. Citizens are urged 
to adopt a heightened sensitivity toward unusual events or 
individuals they may encounter in or around the ports, docks, 
marinas, riverside, beaches or communities. Anyone observing 
suspicious activity is simply asked to note details and contact 
law enforcement.
    In 2004, the Coast Guard expanded the Louisiana River Watch 
and other similar programs to the national level and is calling 
it America's Waterway Watch. This collective national action is 
designed to increase the awareness of all Americans to 
suspicious activities on or near our coastline and river 
systems.
    In yet another Eighth Coast Guard District initiative, the 
Inland River Vessel Movement Center, IRVMC, was created. IRVMC 
was established in fiscal year 2003 to help develop greater 
maritime domain awareness on the Western Rivers through the 
tracking of certain dangerous cargo, as specified by 
regulation, that are carried in barges. Each year, IRVMC tracks 
over 36,000 transits of barges carrying these hazardous cargo 
at 94 individual reporting points, over 10,300 miles of the 
inland rivers including thousands of transits through high 
density population areas. The location of barges carrying 
specified cargo is reported to the IRVMC either electronically 
or manually. IRVMC provides this information to the inland 
river COTPs. The COTPs then are able to schedule security 
boardings and escorts based on individual risks associated with 
the movement of the cargo through specific regions of the 
country. The information provided by IRVMC is essential to the 
Western Rivers Maritime Security Mission and provides the only 
MDA within the inland rivers system.
    Create and Oversee an Effective Maritime Security Regime: 
The U.S. commercial vessel, including tank barges, fleet and 
U.S. maritime waterfront facilities are the heart and soul of 
the maritime industry. Under the MTSA, each vessel and each 
facility is now required to be operating under a Coast Guard 
approved security plan. Again, like the ISPS code, these 
security plans are designed to ensure the vessel is secure and 
under the positive control of the assigned crew. Security plans 
require each facility to implement mandatory access control 
measures to ensure that only authorized persons are able to 
gain access. Plan requirements establish designated restricted 
areas within the facility gates and screening protocols for 
ensuring that cargo-transport vehicles and persons entering the 
facilities are inspected to deter the unauthorized introduction 
of dangerous substances and devices. Vessel and facility owners 
are fully responsible and accountable for full security of 
their infrastructure and operations.
    To date, the U.S. Coast Guard has reviewed and approved 
over 9,600 domestic vessel security plans and 3,100 domestic 
facility security plans. The Eighth Coast Guard District is 
responsible for 5,447, or 57 percent, of the domestic vessels 
and 1,291, or 42 percent, of the domestic facilities. Coast 
Guard personnel have inspected every single facility required 
to have a security plan to verify that they are operating in 
compliance with their approved plan. Additionally, Coast Guard 
personnel are in the process of examining every U.S. vessel 
required to have a security plan to verify that they, too, are 
operating in compliance with their approved plans.
    Improve Response and Recovery Posture: The Western Rivers 
Area Maritime Security, AMS, Committee was chartered on January 
30, 2004, in accordance with 33 CFR 103.300(b). The AMS 
Committee provides a forum for port stakeholders in the Western 
Rivers Region to work together in facilitating the Coast 
Guard's Ports, Waterways and Coastal Security, PWCS, mission to 
deter, detect, prevent and respond to attacks against U.S. 
territory, population and critical maritime infrastructure.
    The AMS Committee functions as the regional AMS Committee 
for the Western Rivers Region. As such, it incorporates the 
geographic boundaries of the Captain of the Port, COTP, zones 
of Pittsburgh, Huntington, Paducah, Louisville, St. Louis, and 
Memphis. In addition, certain river portions of the COTP zones 
of Chicago, Mobile and New Orleans are incorporated into the 
committee. The AMS Committee is comprised of an Executive 
Steering Committee of voting members and at-large non-voting 
members. The Committee serves as an oversight body for the Area 
Maritime Security Subcommittees within the region that operate 
under the COTPs. The COTPs remain the Federal Maritime Security 
Coordinators, FMSC, for their respective COTP zones described 
in 33 CFR part three, including all ports and areas located 
therein, and oversee all AMS Subcommittee activities.
    The AMS Committee coordinates maritime security activities 
among Western Rivers COTP zones to assure consistency in 
identifying critical port infrastructure and operations; 
identifying risks, threats, vulnerabilities, and consequences; 
determining mitigation strategies and implementation methods; 
developing and describing the process to continually evaluate 
overall port security.
    Additionally, the AMS Committee prepares and maintains the 
Western Rivers Area Maritime Security Plan, hereinafter 
referred to as the WRAMS Plan, incorporating annexes developed 
by the COTPs. The WRAMS Plan addresses port security issues and 
security operating procedures common to all COTP offices in the 
region. The AMS Committee does provide a regional focus to the 
COTPs in their efforts to complete risk-based AMS assessments 
and assist the COTPs in developing, reviewing and updating 
their individual annexes to the AMS Plan.
    The AMS Committee provides guidance to individual AMS 
Subcommittees throughout the region and fosters a system-wide 
approach to maritime security within the region that emphasizes 
regional strategies and resources. Finally, the AMS committee 
serves as a link in communication threats and changes in 
Maritime Security, MARSEC, levels and disseminating security 
information to the AMS Subcommittees through the COTPs.
    Membership of the Executive Steering Committee consists of 
representative from the Eighth Coast Guard District Inland 
Waterways Coordinator; Transportation Security Administration; 
Bureau of Customs and Border Protection; Maritime 
Administration; USACE Mississippi Valley Division and Great 
Lakes and Ohio River Division; Transportation Command; Towing 
Safety Advisory Committee; Chemical Transportation Advisory 
Committee; American Waterways Operators; Passenger Vessel 
Association; American Gaming Association; Inland Rivers Ports 
and Terminals; Barge Fleeting Representative; River Industry 
Executive Task Force.
    The WRAMS plan serves as an umbrella plan for the Western 
Region into which all COTPs/FMSCs, Captains of the Ports/
Federal Maritime Security Coordinators, have incorporated their 
AMS, Area Maritime Security, plans as separate annexes. It 
specifies COTP/FMSC security procedures for all MARSEC, 
Maritime Security, levels.
    The COTPs/FMSCs in the Western Rivers Region have formed 21 
local AMS subcommittees to address maritime security issues 
throughout their zones. Like the WRAMS Committee, these local 
committees are comprised of Federal, State and local officials 
as well as maritime industry representatives whose purpose is 
to assist the COTP/FMSC in the development, review and update 
of AMS, Area Maritime Security, plans; to assist in 
communicating threats and changes in MARSEC levels; and to 
assist in disseminating appropriate security information to 
port stakeholders.
    All COTPs/FMSCs must complete an AMS exercise for their 
respective zones by December 31, 2005. The Eighth Coast Guard 
District, the COTPs/FMSCs and the local AMS committees are 
presently engaged in planning the exercises that will test and 
evaluate their respective annexes in the WRAMS Plan.
    Port of Vicksburg, Mississippi: There are eight Maritime 
Transportation Security Act, MTSA, regulated facilities in and 
around the Port of Vicksburg, Mississippi. All eight facilities 
have been inspected for compliance with 33 CFR 105, and have 
Coast Guard-approved Facility Security Plans.
    Marine Safety Unit Baton Rouge has established an Area 
Maritime Security committee in Vicksburg. Representatives from 
the Madison Parish Sheriff's Office, Louisiana side of the 
river, Warren County Sheriff's Office, Vicksburg Police 
Department, Facility Security Officers for all MTSA-regulated 
facilities, the U.S. Army Corp of Engineers, Warren County 
Office of Emergency Preparedness, and the Vicksburg Port 
Commission are all participating members of the Committee.
    Critical non-MTSA regulated facilities and infrastructure 
has been identified, assessed for risk, and mitigation 
strategies are in place with local law enforcement. MSU Baton 
Rouge Port Security planners also met with the security 
supervisor for the Grand Gulf Nuclear Power Plant located south 
of Vicksburg and conducted a tour of the facility to identify 
any potential maritime security concerns associated with the 
power plant.
    Unclassified Field Intelligence Reports describing 
potential suspicious activity in and around infrastructure and 
facilities in Baton Rouge are shared with local law enforcement 
agencies in Vicksburg. This information is intended to heighten 
the awareness of the law enforcement community in Vicksburg and 
help them identify potential suspicious activity in their area 
worth reporting to the Coast Guard.
    Two Public Access Facilities have been identified in the 
port area to accommodate MTSA-regulated passenger vessels that 
make routine port calls in the area. The Coast Guard has 
coordinated with the appropriate local law enforcement agencies 
and the passenger vessel operators to establish security 
mitigation procedures.
    Boat launch facilities and logistics for accommodating 
Marine Safety Unit Baton Rouge's trailer-able port security 
boat have been identified in the event Coast Guard port 
security patrol assets are ever needed to be deployed in the 
port.
    Conclusion: In closing, the Coast Guard is dedicated to 
leading the way for maritime security, and nowhere is that more 
true than in the Eighth District. It demands a coordinated 
effort and continued vigilance by all involved, and is a charge 
the Coast Guard and the men and women of the Eighth District 
are proudly meeting.
    I know I have gone over my time, but I thank you for the 
time that you have given me.
    I have details on each of those, and I will be glad to 
respond if you are interested in those. With this, I will 
conclude my testimony, thank you.
    [The statement of Admiral Duncan follows:]

          PPrepared Statement of Rear Admiral Robert F. Duncan

Introduction
    Good morning Mr. Chairman and distinguished Members of the 
Committee. It is a pleasure to be here today to discuss the Coast 
Guard's role in enhancing the security of America's ports and inland 
waterways in order to facilitate the safe and efficient flow of 
commerce.
    On 9/10/01, our primary maritime focus was on the safe and 
efficient use of America's waterways. Since 9/11, we have made great 
progress in securing America's waterways, while continuing to 
facilitate the safe and efficient flow of commerce. There is no doubt 
that work remains, but there is also no doubt that we continue to 
improve maritime homeland security each and every day -thanks in large 
part to the continued strong cooperation with the domestic and 
international maritime industry as well as many US federal, state, and 
local agencies.
Reducing Maritime Risk
    The Coast Guard's overarching security goal is to prevent terrorist 
attacks within or exploitation of the U.S. maritime domain. Doing so 
requires a risk-based approach to identifying and intercepting threats 
well before they reach U.S. shores. We do that by using intelligence 
information and by conducting layered, multi-agency security operations 
nationwide; while strengthening the security posture and reducing the 
vulnerability of our ports, with particular focus on our militarily and 
economically strategic ports. Using threat, vulnerability and 
consequences as a general model, is fundamental to managing risks 
associated with terrorist attack while retaining our quality of life.

The Eighth Coast Guard District
    The Eighth Coast Guard District, headquartered in New Orleans, 
covers all or part of 26 states throughout the Gulf Coast and heartland 
of America. It stretches from the Appalachian Mountains and 
Chattahoochee River in the east to the Rocky Mountains in the west, and 
from the U.S.-Mexico border and the Gulf of Mexico to the Canadian 
border in North Dakota, which includes 15,490 miles of coastline and 
10,300 miles of inland navigable waterways.
    In a typical year, the men and women of the Eighth Coast Guard 
District are involved in more than 6,300 search and rescue cases--
saving 770 lives, assisting 7,900 mariners and saving $37.5 million in 
property. The district maintains 24,000 aids-to-navigation, responds to 
more than 4,200 marine environmental pollution incidents and conducts 
more than 1,500 law-enforcement boardings.
    The ports of New Orleans and Houston, located in the Eighth 
District, are two of the busiest shipping ports in the nation, with 
more than two million barrels of oil and one million tons of cargo 
imported daily. Seventeen of the top 40 busiest U.S. ports by tonnage 
are located in the Eighth District. These ports are part of an 
international supply and delivery system that brings an extremely wide 
range of materials and goods into the country and exports an equally 
wide range of commodities from the United States. Imports include crude 
oil for our refineries, liquefied natural gas (LNG), bulk minerals and 
finished products. Exports include grains, refined petroleum products 
and chemicals just to name a few.
    There are more than 6,500 oil and gas producing wells, along with 
130 mobile offshore drilling units in the Gulf of Mexico that keep the 
district's Marine Safety program gainfully employed. Five of the top 
seven fishing ports in the country are located in the district. They 
account for nearly 40 percent of the catch of U.S. commercial 
fishermen.
    The Western Rivers consists of 41 rivers and lakes across 18 states 
and encompasses the heartland of the United States. The Western Rivers 
centers on the Mississippi River and its major tributaries, including 
the Ohio, Illinois, Missouri, Arkansas, Tennessee, and Cumberland 
Rivers (over 10,300 miles of navigable waterways). The states of 
Pennsylvania, Ohio, West Virginia, Kentucky, Nebraska, Tennessee, 
Indiana, Arkansas, Iowa, Kansas, Missouri, Oklahoma, Louisiana, 
Mississippi, Alabama, Illinois, Minnesota and Wisconsin are all part of 
my area of responsibility. The Western Rivers waterways are vital in 
moving bulk cargoes and manufactured goods for foreign and domestic 
commerce. These rivers have provided a channel into the nation's 
heartland, connecting the Gulf Coast with the coal and steel industries 
of Pittsburgh, Pennsylvania; and the grain exporters of the Twin 
Cities, Minnesota.
    Charged with protecting this vast swath of America's heartland are 
approximately 3,956 active duty and selected reserve members 
geographically located in the district. There are also 6,000 volunteer 
Coast Guard Auxiliarists and 254 civilian personnel located in the 
district. I would specifically like to note that Coast Guard 
Auxiliarists are playing an increasing role in maritime security by 
their assistance to local Captains of the Ports (COTPs). While unarmed 
and not performing any law enforcement missions, these citizens act as 
tremendous force multipliers and have proven themselves invaluable.
Maritime Security for America's Heartland The Coast Guard's strategy 
for maritime security consists of four primary pillars:
        <bullet> Enhance Maritime Domain Awareness;
        <bullet> Create & Overseee a Maritime Security Regime;
        <bullet> Increase Operational Presence; and
        <bullet> Improve Response and Recovery Posture
    While I will not detail all the Coast Guard is doing in support of 
this strategy, I would like to highlight a few issues specific to the 
Eighth District.

Enhancing Awareness
     Aligned closely to the ISPS code, the Maritime Transportation 
Security Act of 2002 (MTSA) implements domestic regulations for US 
vessels and US port facilities mirroring those required for foreign 
vessels and foreign ports. This includes the establishment of maritime 
security (MARSEC) levels that correspond to the international system 
and correlate to the Homeland Security Advisory System (HSAS) used 
throughout the United States. Additionally, MTSA required the 
implementation of regulations requiring the use of Automated 
Information Systems (AIS) on all foreign flag and most US flag 
commercial vessels transiting regulated Vessel Traffic Service areas. 
AIS allows the Coast Guard to electronically track. the movement of 
vessels as they transit US waters in US ports. In the Eighth District, 
we have also installed additional AIS tracking receivers on offshore 
oil production platforms in the Gulf of Mexico (GOM) in an initiative 
to further push out our borders. Much like the Distant Early Warning 
(DEW) System of the Cold War, this GOM ``DEW Line'' extends the Coast 
Guard's vessel tracking capabilities into the reaches of international 
waters greatly improving maritime domain awareness. Other sensors will 
be added to the system.
    In 2002, the Eighth Coast Guard District and the State of Louisiana 
co-sponsored the Louisiana River Watch Program. Based on the tenets of 
the Neighborhood Watch Program, this awareness program asks those who 
work, live, or recreate on or near the water to be aware of suspicious 
activity that might indicate threats to our country's homeland 
security. Citizens are urged to adopt a heightened sensitivity toward 
unusual events or individuals they may encounter in or around ports, 
docks, marinas, riversides, beaches, or communities. Anyone observing 
suspicious activity is simply asked to note details and contact local 
law enforcement. In 2004, the Coast Guard expanded the Louisiana River 
Watch and other similar programs to the national level and is calling 
it America's Waterway Watch. This collective national action is 
designed to increase the awareness of all Americans to suspicious 
activities on or near our coastlines and river systems.
    In yet another Eighth Coast Guard District initiative, the Inland 
River Vessel Movement Center (IRVMC) was created. IRVMC was established 
in fiscal year 2003 to help develop greater maritime domain awareness 
on the Western Rivers through the tracking of Certain Dangerous Cargoes 
(as specified by regulation) that are carried in barges. Each year 
IRVMC tracks over 36,000 transits of barges carrying these hazardous 
cargoes, at 94 individual reporting points, over 10,300 miles of the 
inland rivers, including thousands of transits through High Density 
Population Areas. The location of barges carrying specified cargos is 
reported to the IRVMC either electronically or manually. IRMVC provides 
this information to the inland river COTPs. The COTPs then are able to 
schedule security boardings and escorts based on individual risks 
associated with the movement of the cargo through specific regions of 
the country. The information provided by IRVMC is essential to the 
Western Rivers Maritime Security mission and provides the only MDA 
within the inland rivers system.

Create & Oversee an Effective Maritime Security Regime
    The U.S. commercial vessel (including tank barges) fleet and U.S. 
maritime waterfront facilities are the heart and soul of the maritime 
industry. Under the MTSA, each vessel and each facility is now required 
to be operating under a Coast Guard approved security plan. Again, like 
the ISPS code, these security plans are designed to ensure the vessel 
is secure and under the positive control of the assigned crew. Security 
plans require each facility to implement mandatory access control 
measures to ensure that only authorized persons are able to gain 
access. Plan requirements establish designated restricted areas within 
the facility gates and screening protocols for ensuring that cargo-
transport vehicles and persons entering the facilities are inspected to 
deter the unauthorized introduction of dangerous substances and 
devices. Vessel and facility owners are fully responsible and 
accountable for full security of their infrastructure and operations. 
To date, the US Coast Guard has reviewed and approved over 9,600 
domestic vessel security plans and 3,100 domestic facility security 
plans. The Eighth Coast Guard District is responsible for 5,447 or 57 
percent of the domestic vessels, and 1,291, or 42 percent, of the 
domestic facilities. Coast Guard personnel have inspected every single 
facility required to have a security plan to verify that they are 
operating in compliance with their approved plan. Additionally, Coast 
Guard personnel are in the process of examining every U.S. vessel 
required to have a security plan to verify that they too are operating 
in compliance with their approved plans.

Improve Response and Recovery Posture
    The Western Rivers Area Maritime Security (AMS) Committee was 
chartered on January 30, 2004, in accordance with 33 CFR 103.300(b). 
The AMS Committee provides a forum for port stakeholders in the Western 
Rivers Region to work together in facilitating the Coast Guard's Ports, 
Waterways, and Coastal Security (PWCS) mission to deter, detect, 
prevent and respond to attacks against U.S. territory, population, and 
critical maritime infrastructure.
    The AMS Committee functions as the regional AMS Committee for the 
Western Rivers Region. As such, it incorporates the geographic 
boundaries of the Captain of the Port (COTP) zones of Pittsburgh, 
Huntington, Paducah, Louisville, St. Louis, and Memphis, as described 
below. In addition, certain rivers portions of the COTP zones of 
Chicago, Mobile, and New Orleans are incorporated into the Committee. 
The AMS Committee is comprised of an ``Executive Steering Committee'' 
of voting members, and ``At-Large'' non-voting members. The Committee 
serves as an oversight body for the Area Maritime Security 
Subcommittees within the region that operate under the COTPs. The COTPs 
remain the Federal Maritime Security Coordinators (FMSC) for their 
respective COTP zones described in 33 CFR Part 3, including all ports 
and areas located therein, and oversee all AMS Subcommittee activities.
    The AMS Committee coordinates maritime security activities among 
Western Rivers COTP zones to assure consistency in:
        (1) Identifying critical port infrastructure and operations.
        (2) Identifying risks (threats, vulnerabilities, and 
        consequences).
        (3) Determining mitigation strategies and implementation 
        methods.
        (4) Developing and describing the process to continually 
        evaluate overall port security.
    Additionally the AMS Committee prepares and maintains the Western 
Rivers Area Maritime Security Plan, hereinafter referred to as the 
``WRAMS Plan,'' incorporating annexes developed by the COTPs. The WRAMS 
Plan addresses port security issues and security operating procedures 
common to all COTP offices in the region. The AMS Committee does 
provide a regional focus to the COTPs in their efforts to complete 
risk-based AMS assessments and assist the COTPs in developing, 
reviewing, and updating their individual annexes to the AMS Plan. The 
AMS Committee provides guidance to individual AMS Subcommittees 
throughout the region and fosters a system-wide approach to maritime 
security within the region that emphasizes regional strategies and 
resources. Finally, the AMS committee serves as a link in communicating 
threats and changes in Maritime Security (MARSEC) levels, and 
disseminating security information to the AMS Subcommittees through the 
COTPs.

Membership of the Executive Steering Committee consists of 
representatives from:
        <bullet> Eighth Coast Guard District Inland Waterways 
        Coordinator
        <bullet> Transportation Security Administration
        <bullet> Bureau of Customs and Border Protection
        <bullet> Maritime Administration
        <bullet> U.S.A.C.E. Mississippi Valley Division and Great Lakes 
        and Ohio River Division
        <bullet> Transportation Command
        <bullet> Towing Safety Advisory Committee
        <bullet> Chemical Transportation Advisory Committee
        <bullet> American Waterways Operators
        <bullet> Passenger Vessel Association
        <bullet> American Gaming Association
        <bullet> Inland Rivers Ports and Terminals
        <bullet> Barge Fleeting Representative
        <bullet> River Industry Executive Task Force
    The WRAMS plan serves as an umbrella plan for the Western Rivers 
Region into which all COTPs/FMSCs (Captains of the Portsl/Federal 
Maritime Security Coordinators) have incorporated their AMS (Area 
Maritime Security) Plans as separate annexes. It specifies COTP/FMSC 
security procedures for all MARSEC (Maritime Security) levels.
    The COTPs/FMSCs in the Western Rivers Region have formed twenty-one 
local AMS subcommittees to address maritime security issues throughout 
their zones. Like the WRAMS Committee these local committees are 
comprised of federal, state and local officials, as well as maritime 
industry representatives, whose purpose is to assist the COTP/FMSC in 
the development, review and update of AMS (Area Maritime Security) 
plans; to assist in communicating threats and changes in MARSEC levels; 
and to assist in disseminating appropriate security information to port 
stakeholders.
    All COTPs/FMSCs must complete an AMS exercise for their respective 
zones by December 31, 2005. The Eighth Coast Guard District, the COTPs/
FMSCs and the local AMS committees are presently engaged in planning 
the exercises that will test and evaluate their respective annexes in 
the WRAMS Plan.

Port of Vicksburg, Mississippi
    There are eight Maritime Transportation Security Act (MTSA) 
regulated facilities in and around the Port of Vicksburg, Mississippi. 
All eight facilities have been inspected for compliance with 33 CFR 
105, and have Coast Guard-approved Facility Security Plans.
    Marine Safety Unit Baton Rouge has established an Area Maritime 
Security Committee in Vicksburg. Representatives from the Madison 
Parish Sheriff's Office (Louisiana side of the river), Warren County 
Sheriffs Office, Vicksburg Police Department, Facility Security 
Officers for all MTSA-regulated facilities, the U.S. Army Corp of 
Engineers, Warren County Office of Emergency Preparedness, and the 
Vicksburg Port Commission are all participating members of the 
Committee. Critical non-MTSA regulated facilities and infrastructure 
has been identified, assessed for risk, and mitigation strategies are 
in place with local law enforcement. MSU Baton Rouge Port Security 
planners also met with the security supervisor for the Grand Gulf 
Nuclear Power Plant located south of Vicksburg and conducted a tour of 
the facility to identify any potential maritime security concerns 
associated with the power plant.
    Unclassified Field Intelligence Reports describing potential 
suspicious activity in and around infrastructure and facilities in 
Baton Rouge are shared with local law enforcement agencies in 
Vicksburg. This information is intended to heighten the awareness of 
the law enforcement community in Vicksburg and help them identify 
potential suspicious activity in their area worth reporting to the 
Coast Guard.
    Two Public Access Facilities have been identified in the port area 
to accommodate MTSA-regulated passenger vessels that make routine port 
calls in the area. The Coast Guard has coordinated with the appropriate 
local law enforcement agencies and the passenger vessel operators to 
establish security mitigation procedures.
    Boat launch facilities and logistics for accommodating Marine 
Safety Unit Baton Rouge's trailerable port security boat have been 
identified in the event Coast Guard port security patrol assets are 
ever needed to be deployed in the port.

Conclusion
    In closing, the Coast Guard is dedicated to leading the way for 
maritime security and nowhere is that more true than in the Eighth 
District. It demands a coordinated effort and continued vigilance by 
all involved, and is a charge the Coast Guard and the men and women of 
the Eighth District are proudly meeting.

    Chairman Cox. Thank you for your testimony.
    Our next witness is Jimmy Heidel, director, Warren County 
Port Commission, and vice president of the Vicksburg-Warren 
Chamber of Commerce.

 STATEMENT OF JIMMY HEIDEL, EXECUTIVE DIRECTOR, WARREN COUNTY 
 PORT COMMISSION, AND VICE PRESIDENT, VICKSBURG-WARREN COUNTY 
                      CHAMBER OF COMMERCE

    Mr. Heidel. Mr. Chairman, thank you for this opportunity 
this morning.
    Operated by the Warren County Port Commission, the Port of 
Vicksburg began shipping operations in October 1968. Each year, 
more than 3 million tons of cargo passes through the port, 
which has its own U.S. Customs Port of Entry.
    The port consists of a slack water channel 9,500 feet in 
length and 300 feet wide with 12 feet minimum depth. Vicksburg 
Harbor is connected to the Mississippi River by a 4,800-foot 
long channel maintained at 150 feet wide and 12 feet deep.
    Based on its efficiency in loading and unloading cargo, the 
Port of Vicksburg was selected as one of the best inland ports 
in the Nation by the Ports and Waterway Institute at Louisiana 
State University. Facilities at the Port include a 15-ton 
bridge crane and a T-dock equipped with a 125-ton crane. Rail-
served warehousing facilities are also available.
    One of the most outstanding features of the port is the 
LASH program. This program enables a barge to be sealed for 
international travel in Vicksburg and transferred directly to 
New Orleans where the barge is then loaded with products still 
sealed. Ten barge lines service the Port of Vicksburg year-
round without seasonal limitations.
    The port is accessible from U.S. Highway 61, which 
interchanges with Interstate 20, 6 miles away. The site is 
within a commercial trucking zone and is served by 21 truck 
lines.
    A feasibility study through a contract with the U.S. Army 
Corps of Engineers from the Mississippi Department of 
Transportation will determine the need and economic impact on a 
region encompassing a 100-mile radius around Vicksburg-Warren 
County, Mississippi.
    Recently, another U.S. Department of Transportation study 
revealed highway and rail transportation has increased to the 
point that alternate modes of transportation, such as water 
transportation, will have to be utilized more in the future. 
Another fact that was pointed out is water transportation is 
the least costly of the three modes of transportation.
    Presently, there are 322 acres of industrial land at the 
Port of Vicksburg and another 25 acres along the Yazoo 
Diversion Channel that have access to water transportation on 
the Mississippi River and its tributaries.
    There are 24 companies employing 2,413 people directly and 
indirectly who use water transportation at the Port of 
Vicksburg. These figures do not include the U.S. Army Corps of 
Engineers or two other companies that are at the Port and use 
rail and truck.
    The 24 companies, situated on 322 acres, employing 2,413 
people, transport approximately 3,750,000 tons per year through 
the Port of Vicksburg and employ 2,413 people with an annual 
payroll of $113,615,320.
    Utilizing existing data on employee payrolls, tons, both 
direct and indirect on existing port property, the following 
economic impact can be projected.
    The 322 acres of land occupied by companies utilizing water 
transportation average 10 employees per acre. The payroll is 
$113,615,320 for direct and indirect employees or approximately 
$511,780 in payroll per acre. The average tonnage generated is 
3,750,000 tons or 11,646 tons per acre.
    The economic impact of 80 acres of new industrial land 
fully utilizing water transportation would be an additional 872 
employees at an annual payroll of $40,942,400 and an increase 
of 931,680 tons per year.
    The U.S. Chamber of Commerce projects a payroll turnover 
seven times within a community. Therefore, an annual payroll of 
$40,942,400 would generate an economic impact of $286,596,800 
in the 100-mile radius of Vicksburg-Warren County, of which 60 
percent remain in the Vicksburg-Warren county area.
    This same impact could be felt adversely if the Port of 
Vicksburg's security came under attack or that of one of its 
companies. The State and national economy would have an even 
greater impact if the Mississippi River Bridge, the only rail 
crossing between Memphis, Tennessee, and Baton Rouge, 
Louisiana, were to become a target.
    The administration has developed a comprehensive National 
Strategy For Homeland Security focused on several key Areas: 
intelligence and warning; border and transportation security; 
protecting critical infrastructure; defending against 
catastrophic threats; and emergency preparedness and response.
    We must prepare an approach to security that incorporates 
prevention and protection in a way that respects our liberty 
and our privacy and fosters our prosperity. We cannot afford to 
be overwhelmed by fear or paralyzed by the existence of 
threats, but be prepared and aware.
    Risk management is fundamental to managing the threat, 
while retaining our quality of life and living in freedom. Risk 
management must guide our decision-making as we examine how we 
can best organize to prevent, respond and recover from an 
attack.
    These words were taken from a speech delivered by our 
Homeland Security Secretary Michael Chertoff.
    How quickly your company can get back to business after a 
terrorist attack or tornado, a fire or flood often depends on 
emergency planning done today. A commitment to planning today 
will help support employees, customers, the community, the 
local economy and even the country. It also protects your 
business investment and gives your company a better chance for 
survival.
    Business continuity and crisis management can be complex 
issues depending on your particular industry, size and scope of 
your business. However, putting a plan in motion will improve 
the likelihood that your company will survive and recover.
    America's Waterway Watch is a national awareness program 
that asks those who work, live or recreate on or near the water 
to be aware of suspicious activity that might indicate threats 
to our country's homeland security. Americans are urged to 
adopt a heightened sensitivity toward unusual events or 
individuals they may encounter in or around ports, docks, 
marinas, riversides, beaches or communities.
    Since the events of terrorism on September 11th and as part 
of the National Homeland Security effort, our community is 
fortunate to have very proactive local leaders from the city 
and county working together to address and implement mandated 
procedures to protect Vicksburg and Warren County.
    As a port city, there are standardized incident management 
processes, protocols and procedures that have been put into 
place. Working together with the United States Coast Guard and 
their safety unit, a Harbor Safety and Security Committee has 
been established. Daily awareness intelligence and anti-
terrorism reports are received and acted upon as necessary. 
Working together with the Warren County Sheriff's Department, 
patrol boats are launched as needed to monitor our bridges and 
harbor through the Warren County Sheriff's Department. There is 
a 24-hour security presence at the Mississippi River Bridge and 
the Highway 80 Bridge. Local and county law enforcement, city 
and county fire department leaders, the U.S. Coast Guard, the 
Mississippi State Highway Patrol office and our local Emergency 
Management Agency communicate frequently on emergency 
procedures needed to activate and protect out community. 
Business leaders from all industry at the Port of Vicksburg 
have come together to share essential information and contact 
numbers necessary to respond quickly and efficiently to ensure 
our industry is aware and prepared for any emergency to protect 
our port and community.
    In addition, our Warren County Emergency Director, Mr. L.W. 
``Bump'' Callaway is actively pursuing a Buffer Zone Protection 
Grant through the Mississippi Office of Homeland Security, and 
the U.S. Marshals Service is conducting a survey to ensure the 
protection of our Warren County Courthouse.
    The people of Warren County can take great pride in knowing 
our community leaders and law enforcement are committed to 
assure our citizens the events of September 11th were not taken 
lightly, and security is in place to help keep our environment 
and economy free from threat.
    [The statement of Mr. Heidel follows:]

                   Prepared Statement of Jimmy Heidel

    Protecting Our Commerce Enhancing Port and Waterway Security
    Economic development is a long-term process that requires a vision 
and hard work. In order to make progress, we have to continue to work 
together and plan for the future of our children and those to come.
    The Vicksburg-Warren County area economy is very diversified, with 
growth in manufacturing, tourism, regional retail sales, casino gaming, 
U.S. Army Corps of Engineers Lower Mississippi Division Headquarters, 
U.S. Waterways Experiment Station, Mississippi River Commission 
Headquarters, new regional medical facilities, and all four modes of 
transportation.
    There are many potential projects that will provide infrastructure 
and emphasis for our area to prosper and provide a great quality of 
life for our citizens. One of those is the Port of Vicksburg.
    Operated by the Warren County Port Commission, the Port of 
Vicksburg began shipping operations in October 1968. Each year, more 
than three million tons of cargo passes through the port, which has its 
own U.S. Customs Port of Entry.
    The port consists of a slack water channel 9,500 feet in length and 
300 feet wide with 12 feet minimum depth. Vicksburg Harbor is connected 
to the Mississippi River by a 4,800-foot long channel maintained at 150 
feet wide and 12 feet deep.
    Based on its efficiency in loading and unloading cargoes, the Port 
of Vicksburg was selected as one of the best inland ports in the nation 
by the Ports and Waterways Institute at Louisiana State University. 
Facilities at the Port include a 15-ton bridge crane and a T-dock 
equipped with a 125-ton crane. Rail-served warehousing facilities are 
also available.
    One of the most outstanding features of the Port is the LASH 
program. This program enables a barge to be sealed for international 
travel in Vicksburg and transferred directly to New Orleans, where the 
barge is then loaded, with products still sealed. Ten barge lines 
service the Port of Vicksburg year-round without seasonal limitations.
    The Port is accessible from U.S. Highway 61, which interchanges 
with Interstate 20, six miles away. The site is within a commercial 
trucking zone and is served by 21 truck lines.
    A feasibility study through a contract with the U.S. Army Corps of 
Engineers from the Mississippi Department of Transportation will 
determine the need and economic impact on a region encompassing a 
100mile radius around Vicksburg-Warren County, Mississippi.
    Recently, another U.S. Department of Transportation study revealed 
highway and rail transportation has increased to the point that 
alternate modes of transportation, such as water transportation, will 
have to be utilized more in the future. Another fact that was pointed 
out is water transportation is the least costly of the three modes of 
transportation.
    Presently, there are 322 acres of industrial land at the Port of 
Vicksburg and another 25 acres along the Yazoo Diversion Channel that 
have access to water transportation on the Mississippi River and its 
tributaries.
    There are 24 companies employing 2,413 people direct and indirectly 
who use water transportation at the Port of Vicksburg. These figures do 
not include the U.S. Army Corps of Engineers or two other companies 
that are at the Port and use rail and truck.
    The 24 companies, situated on 322 acres, employing 2,413 people, 
transport approximately 3,750,000 tons per year through the Port of 
Vicksburg, and employ 2,413 people with an annual payroll of 
$113,615,320.
    Utilizing existing data on employee payrolls, tons, both direct and 
indirect on existing port property, the following economic impact can 
be projected.
        a. The 322 acres of land occupied by companies utilizing water 
        transportation average 10 employees per acre.
        b. The payroll is $113,615,320 for direct and indirect 
        employees or approximately $511,780 in payroll per acre.
        c. The average tonnage generated is 3,750,000 tons or 11,646 
        tons per acre.
    The economic impact of 80 acres of new industrial land fully 
utilizing water transportation would be:
        a. An additional 872 employees at an annual payroll of 
        $40,942,400 and an increase of 931,680 tons per year.
    The U.S. Chamber of Commerce projects a payroll turns over seven 
times within a community. Therefore, an annual payroll of $40,942,400 
would generate an economic impact of $286,596,800 in the 100-mile 
radius of Vicksburg-Warren County, of which 60 percent remain in the 
Vicksburg-Warren County area.
    This same impact could be felt adversely if the Port of Vicksburg's 
security came under attack or that of one of it's companies. The state 
and national economy would have an even greater impact if the 
Mississippi River Bridge, the only rail crossing between Memphis, 
Tennessee and Baton Rouge, Louisiana, were to become a target.
    The Bush Administration has developed a comprehensive National 
Strategy for Homeland Security, focused on several key areas: 
intelligence and warning; border and transportation security; 
protecting critical infrastructure; defending against catastrophic 
threats; and emergency preparedness and response.
    We must prepare an approach to security that incorporates 
prevention and protection in a way that respects our liberty and our 
privacy, and fosters our prosperity. We cannot afford to be overwhelmed 
by fear or paralyzed by the existence of threats, but be prepared and 
aware.
    Risk management is fundamental to managing the threat, while 
retaining our quality of life and living in freedom. Risk management 
must guide our decision-making as we examine how we can best organize 
to prevent, respond and recover from an attack.
    These words were taken from a speech delivered by our Homeland 
Security Secretary, Michael Chertoff.
    How quickly your company can get back to business after a terrorist 
attack or tornado, a fire or flood often depends on emergency 
planning--done today. A commitment to planning today will help support 
employees, customers, the community, the local economy and even the 
country. It also protects your business investment and gives your 
company a better chance for survival.
    Business continuity and crisis management can be complex issues 
depending on your particular industry, size and scope of your business. 
However, putting a plan in motion will improve the likelihood that your 
company will survive and recover!
    America's Waterway Watch IS.a national awareness program that asks 
those who work, live, or recreate on or near the water to be aware of 
suspicious activity that might indicate threats to our country's 
homeland security. American's are urged to adopt a heightened 
sensitivity toward unusual events or individuals they may encounter in 
or around ports, docks, marinas, riversides, beaches, or communities.
    Since the events of terrorism on September 11th, and as part of the 
National Homeland Security effort, our community is fortunate to have 
very pro-active local leaders, from the city and county, working 
together to address and implement-mandated procedures to protect 
Vicksburg and Warren County.
    As a port city, there are standardized incident management 
processes, protocols and procedures that have been put into place. 
Working together with the United States Coast Guard and their safety 
unit, a Harbor Safety and Security Committee has been established. 
Daily awareness intelligence and antiterrorism reports are received and 
acted upon as necessary. Working with together with the Warren County 
Sheriff's Department patrol boats are launched as needed to monitor our 
bridges and harbor through the Warren County Sheriff's Department. 
There is a 24-hour security presence at the Mississippi River Bridge 
and the Highway 80 Bridge. Local and county law enforcement, city and 
county fire department leaders, the U.S. Coast Guard, the Mississippi 
State Highway Patrol office, and our local Emergency Management Agency 
communicate frequently on emergency procedures needed to activate and 
protect our community. Business leaders from all industry at the Port 
of Vicksburg have come together to share essential information and 
contact numbers necessary to response quickly and efficiently to ensure 
our industry are aware and prepared for any emergency to protect our 
port and community.
    In addition, our Warren County Emergency Director, Mr. L.W. 
``Bump'' Callaway is actively pursuing a Buffer Zone Protection Grant 
through the Mississippi Office of Homeland Security and the U.S. 
Marshal Service is conducting a survey to ensure the protection of our 
Warren County Court House.
    The people of Warren County can take great pride in knowing our 
community leaders and law enforcement are committed to insure our 
citizens the events of September 11th were not taken lightly and 
security is in place to help keep our environment and economy free from 
threat.

    Chairman Cox. Thank you very much.
    Ms. Cynthia Swain, who is the director of safety and 
security, Port of New Orleans.

 STATEMENT OF CYNTHIA SWAIN, DIRECTOR OF SAFETY AND SECURITY, 
                      PORT OF NEW ORLEANS

    Ms. Swain. Good morning. I am Cynthia Swain, the director 
of port safety and security for the Board of Commissioners of 
the Port of New Orleans. Thank you for the invitation to 
testify at this hearing. It is my hope this committee is both 
resolved and empowered to initiate the necessary actions to 
address the many issues that are presented here today.
    Approximately one year ago, the port's president and CEO, 
Gary LaGrange, gave testimony before the Senate Committee of 
Commerce, Science and Transportation. At that hearing, he 
reported that the port had made significant infrastructure, 
operations and procedural enhancements in an effort to address 
the potential for terrorist activity and comply with the 
impending deadline, July 1, 2004, for Maritime Transportation 
Security Act, MTSA, regulatory compliance. A couple of the then 
ongoing projects referenced have since been completed, 
including: TSA II Cruise Terminal Lighting & Fencing, $600,000; 
TSA II Signs, barricades, barriers, $50,000; the TSA1 Upriver 
Gate Access project and the DHS Upriver Perimeter Enhancement 
project are both scheduled for completion by September 2005.
    Both of these projects experienced delays, in part due to 
the accommodation of a U.S. Customs and Border Protection 
Radiation Portal Monitor project. This project was slated for 
installation at the Port of New Orleans, Felicity Street exit. 
After more than a year of planning, coordination, and actual 
site preparation on the part of the project consultants and 
port security and engineering staff, funding was discontinued, 
and the project was suddenly aborted. The TSA I Gate Access 
project, even when completed, will not be used at 100 percent 
capacity. The project's scope of work included the use of port 
identification credentials or the Transportation Worker 
Identification Card, TWIC, which was projected to be in use 
fully at ports across the Nation by 2004. The Port of New 
Orleans was denied funding for a port credential system in the 
last funding round because it was, ``in line to receive a TWIC 
system.''
    There are currently 34 prototype TWIC test sites throughout 
the country. The Port of New Orleans, however, is apparently in 
the wrong line, because it is no closer to getting a TWIC 
system today than it was then. What is the message here?
    The COPS Hiring Grant provides funding for three of the six 
police officer positions originally requested. All three 
positions have been filled. A portion of their salaries and 
benefits will be paid by the grant for three years. The Harbor 
Police Department currently has one captain, one corporal and 
three officers permanently assigned to Homeland Security 
positions.
    The Port of New Orleans has received $8 million in Federal 
grant awards, and like all port authorities who have been 
fortunate enough to receive awards, we are grateful. However, 
the Port of New Orleans, like all other U.S. port authorities, 
finds that the funding amounts are not sufficient to address 
the completion of remaining enhancements to be made. In most, 
if not all cases, the funding award does not pay for 100 
percent of the finished projects. Ports must still bear the 
cost of mandatory ``matching'' amounts, internal labor and 
management costs and project overruns not covered by the award. 
The financial burden of these costs cannot be ignored. Last 
year, the Port of New Orleans paid more than $1.5 million to 
supplement and initiate security projects. This was over and 
above the Port Safety and Security Division's operating budget 
of $5.5 million and a capital equipment budget of $275,000.
    The port applied for more than $10 million in security 
funding in TSA rounds III and IV. No awards were received from 
either of these last two initiatives. Of the $46 million in 
grant awards from TSA-IV, more than $4.5 million was awarded to 
private entities. It is extremely disconcerting and 
counterproductive for the government to supplement private 
industry from the same funding source the public ports depend 
upon prior to ensuring that each and every U.S. port authority 
has received adequate funding. This practice diminishes the 
importance of port security at every level and gives the 
appearance that ports have adequately addressed their 
vulnerabilities. Since TSA-IV, the Port has identified more 
than $300,000 of additional fencing requirements at its 
terminals, again to meet with MTSA regulations. The 
Vulnerability Assessment prepared in 2001 needs to be revised, 
and an annual security audit, another MTSA requirement needs to 
be commissioned.
    These projects are currently scheduled to be paid for with 
port operating and capital improvement funds. As a result, 
pending projects to improve commercial operations will need to 
be postponed or cancelled. This, of course, makes the security 
projects and requirements even more costly.
    While it is true the ports industry, specifically vessel 
operations, was not the target of or the instrumentality used 
in the recent terrorist attacks, the impact of terrorism on the 
port industry could conceivably be greater. The new Fantasy 
line cruise vessels are capable of carrying more than 3,000 
passengers. The number of lives lost during an attack on a 
vessel or an act of bioterrorism would be catastrophic. 
According to U.S. Coast Guard estimates, a strategically sunken 
cargo vessel at or near the mouth of the Mississippi River 
would close the river for over a year. Such an event would have 
a global cataclysmic impact on every aspect of life as we know 
it today, Because the cruise industry at the Port of New 
Orleans and ports worldwide reflects not only the millions of 
dollars already invested, but millions of anticipated revenues 
as well. Consequently, no port can afford to have its cruise 
business crippled or eliminated.
    The American Association of Port Authorities, therefore, 
expressed grave concern about the elimination of the Department 
of Homeland Security's Port Security Grant Program. Including 
infrastructure security and programmatic issues of port 
security among those of other transportation entities such as 
trains, trucks and other means of private and public conveyance 
will ensure a decrease in the funding and attention being 
sought by ports. A February 2005 report by the AAPA disclosed 
that the U.S. port industry is projected to double its current 
2 billion tons of cargo throughout over the next 15 years. If 
ports are expected to remain competitive, the time to prepare 
is now. Ports should be using funds for capital improvements 
and growth initiatives and not be forced to expend limited 
funds on security enhancements at existing facilities.
    The Port of New Orleans has long recognized the need and 
importance of safety and security at its facilities. It is one 
of the few U.S. ports that has its own sworn and dedicated 
Harbor Police Department. To further supplement its safety 
force, the Port of New Orleans commissioned the design and 
purchase of an emergency response vessel, the General Roy S. 
Kelly, a prototype firefighting vessel that also accommodates 
port protocol tours. This vessel is now being used to perform 
under wharf inspections and daily river patrols to maintain and 
monitor waterside restricted area locations when vessels are 
berthed at port facilities. This vessel was not designed to be 
used at the level of activity described, and the added duties 
are taking a toll on this 10-year-old vessel. Last year, the 
Port spent more than $50,000 on unbudgeted repair costs and is 
preparing to spend more than $80,000 in additional repairs this 
fiscal year, all without receiving any supplementary funds. 
This vessel is routinely dispatched to assist the U.S. Coast 
Guard with waterside emergencies because there are simply no 
other assets in the river that can respond in a timely manner. 
It takes the Coast Guard over one hour to get one of its 
vessels in the river and approximately 30 minutes before a 
helicopter can respond.
    The Port has requested patrol vessels capable of 
withstanding the currents of the Mississippi River in every TSA 
round of funding. Every request has been denied. The General 
Kelley's crew and others like it should be recognized for the 
services they provide. Ports need funding assistance to 
purchase vessels, equipment and to defray heightened 
maintenance and operating costs due to increased use for 
security functions.
    Chairman Cox. Time is almost up.
    Ms. Swain. The Harbor Police Department's mission, while 
one narrowly focused on the maritime industry and port 
community, has always included assisting Federal, State and 
local law enforcement agencies. That focus has been greatly 
expanded due to the trend toward greater interoperability 
between law enforcement agencies in many areas including 
communications, weaponry, intelligence and weapons of mass 
destruction and bio-terrorism readiness.
    The technological equipment, supplies, weapons, training 
and additional staffing all create funding concerns that must 
be addressed. Training, drills and exercises are costly to 
conduct. MTSA regulations require that one full-scale exercise 
and four drills be conducted annually. The planning, equipment 
and personnel overtime requirements are significant, especially 
since other safety exercises related to port operations are 
still needed.
    The call for interoperability has alerted many responding 
agencies--62nd WMD CST, ATF, NOPD SWAT, etc.--to the fact that 
they know very little about the maritime community, 
particularly the Mississippi River and the Industrial Canal. 
Many of these agencies have no experience boarding or searching 
a cargo or passenger vessel.
    The Port Safety and Security Division is often called upon 
to host, coordinate and participate in training for these 
agencies. In only one instance has the Port been financially 
supplemented for these endeavors, yet there are costs 
associated with each request. An internal tabletop exercise 
limited to port employees, private security, and U.S. Coast 
Guard observers will cost approximately $2,000 in 
administration, supplies, accommodations and participant 
salaries. A full-scale exercise involving outside responding 
agencies, industry and port staff could triple in cost.
    I am almost finished.
    Finally, domestic terrorism, such as the World Trade Center 
incidents and the Oklahoma Federal Building bombing, proves 
that being reactive to terrorism, from any source, comes at an 
immeasurable cost--loss of lives. Government must respond to 
the funding needs identified by port authorities commensurate 
with that of the Nation's alert level--Elevated--Yellow--
Significant Threat of Terrorist Activity--as though it is real 
and not merely an innocuous memorial of a one-time terrorist 
incident in our Nation's past.
    The only way to do that is to create and fund proactive 
prevention and response initiatives. To do less will create 
frustration among law enforcement agencies, a continued 
vulnerability of critical assets and, perhaps worst of all, a 
false sense of security or a renewed atmosphere of complacency 
among the people, all of which would contribute to another 
opportunity for history to repeat itself--countless Americans 
dead and yet another date to live in infamy.
    Chairman Cox. Thank you for your testimony.
    [The statement of Ms. Swain follows:]

                 Prepared Statement of Cynthia W. Swain

    Good morning. I am Cynthia Swain, the Director of Port Safety and 
Security for the Board of Commissioners of the Port of New Orleans. 
Thank you for the invitation to testify at this hearing, ``Protecting 
Our Commerce: Enhancing the Security of America(' Ports and Inland 
Waterways.'' It is my hope this committee is both resolved and 
empowered to initiate the necessary actions to address the many issues 
that are presented here today.
    Approximately one year ago the Port's President and CEO, Gary 
LaGrange, gave testimony before the Senate Committee of Commerce, 
Science and Transportation. At that hearing he reported that the Port 
had made significant infrastructure, operations and procedural 
enhancements in an effort to address the potential for terrorist 
activity and comply with the impending deadline (July 1, 2004) for 
Maritime Transportation Security Act (MTSA) regulatory compliance. A 
couple of the then ``ongoing'' projects referenced have since been 
completed, including:
        <bullet> TSA II Cruise Terminal Lighting & Fencing $600,000
        <bullet> TSA II Signs, barricades, barriers           $50,000
    The TSA I Upriver Gate Access project and the DHS Upriver Perimeter 
Enhancement project are both scheduled for completion by September 
2005. Both of these projects experienced delays, in part due to the 
accommodation a U.S. Customs and Border Protection Radiation Portal 
Monitor project slated for installation at the Port of New Orleans 
Felicity Street exit. After more than a year of planning, coordination, 
and actual site preparation on the part of the project consultants and 
port security and engineering staff, funding was discontinued and the 
project was suddenly aborted. The TSA I Gate Access project, even when 
completed, will not be used at 100 percent capacity. The project's 
scope of work included the use of port identification credentials or 
the Transportation Worker Identification Card (TWIC) which was 
projected to be in use fully at ports across the nation by 2004. The 
Port of New Orleans was denied funding for a port credential system in 
the last funding round because it was ``in line to receive a TWIC 
system.'' There are currently 34 prototype TWIC test sites throughout 
the country. The Port of New Orleans, however, is apparently in the 
wrong line, because it is no closer to getting a TWIC system today than 
we were then. What is the message here?
    The COPS Hiring Grant provides funding for three (3) of the six (6) 
police officer positions originally requested. All three positions have 
been filled. A portion of their salaries and benefits will be paid by 
the grant for three years. The Harbor Police Department currently has 
one captain, one corporal and three officers permanently assigned to 
Homeland Security positions.
    The Port of New Orleans has received $8 million in federal grant 
awards, and like all port authorities who have been fortunate enough to 
receive awards, we are grateful. However, the Port finds, like all 
other U. S. Port authorities, that funding amounts are not sufficient 
to address the completion of remaining enhancements to be made. In 
most, if not all cases, the funding award does not pay for 100 percent 
of the finished projects. Ports must still bear the cost of mandatory 
``matching'' amounts, internal labor and management cost and project 
overruns not covered by the award. The financial burden of these costs 
cannot be ignored. Last year the Port of New Orleans paid more than 
$1.5 million dollars to supplement and initiate security projects. This 
was over and above the Port Safety and Security Division's operating 
budget of $5.5 million and a capital equipment budget of $275,000.
    The Port applied for more than $10 million in security funding in 
TSA rounds III and IV. No awards were received from either of these 
last two initiatives. Of the $46 million in grant awards from TSA-IV, 
more than $4.5 million were awarded to private entities. It is 
extremely disconcerting and counterproductive for the government to 
supplement private industry from the same funding source the public 
ports depend upon prior to ensuring that each and every U.S. port 
authority has received adequate funding. This practice diminishes the 
importance of port security at every level and gives the appearance 
that ports have adequately addressed their vulnerabilities. Since TSA-
IV, the Port has identified more than $300,000 of additional fencing 
requirements at its terminals, again to meet with MTSA regulations. The 
Vulnerability Assessments prepared in 2001 needs to be revised, and 
annual security audits, another MTSA requirement needs to be 
commissioned. These projects are currently scheduled to be paid for 
with port operating and capital improvement funds. As a result, pending 
projects to improve commercial operations will need to be postponed or 
cancelled. This, of course, makes the security projects and 
requirements even more costly.
    While it is true that the port industry, specifically, vessel 
operations was not the target of or the instrumentality used in the 
recent terrorist attacks, the impact of terrorism on the port industry 
could conceivably be greater. The new ``Fantasy'' line cruise vessels 
are capable of carrying more than 3,000 passengers. The number of lives 
lost during one vessel incident or an act of bio-terrorism would be 
catastrophic. According to U. S. Coast Guard estimates, a strategically 
sunken cargo vessel, at or near the mouth of the Mississippi River 
would close the river for over a year. Such an event would have a 
global cataclysmic impact on every aspect of life as we know it today. 
Because the cruise industry, unlike the airline industry, is driven by 
leisurely discretionary travel, an atmosphere of fear created by an 
actual or threatened terrorist attack would devastate that burgeoning 
industry. The presence of the cruise industry at Port of New Orleans 
and ports worldwide reflects not only the millions of dollars already 
invested, but millions of anticipated revenues as well. Consequently, 
no port can afford to have its cruise business crippled or eliminated.
    The American Association of Port Authorties (AAPA), therefore, 
expressed grave concern about the elimination of the Department of 
Homeland Security's Port Security Grant Program. Including the port 
security infrastructure and programmatic issues of port security among 
those of other transportation entities such as trains, trucks, and 
other means of private and public conveyance, will ensure a decrease in 
the funding and attention being sought by ports. A February 2005 report 
by the AAPA disclosed that the U.S. port industry is projected to 
double its current ``two billion ton of cargo'' throughput over the 
next 15 years. If ports are expected to remain competitive, the time to 
prepare is now. Ports should be using funds for capital improvements 
and growth initiatives and not be force to expend limited funds on 
security enhancements at existing facilities.
    The Port of New Orleans has long recognized the need and importance 
of safety and security at its facilities. It is one of the few U.S. 
ports that has its own sworn and dedicated Harbor Police Departments. 
To further supplement its safety force, the Port of New Orleans 
commissioned the design and purchase of an emergency response vessel, 
the General Roy S. Kelley, a prototype firefighting vessel that also 
accommodates port protocol tours. This vessel is now being used to 
perform under wharf inspections and daily river patrols to maintain and 
monitor waterside restricted area locations at vessels berthed at port 
facilities. This vessel was not designed to be used at that level of 
activity, and the added duties are taking a toll on this ten-year-old 
vessel. Last year the Port spent more than $50,0000 on unbudgeted 
repair costs, and is preparing to spend more than $80,000 in additional 
repairs this fiscal year--all without receiving any supplementary 
funds. This vessel is routinely dispatched to assist the U.S. Coast 
Guard waterside emergencies because there are no other assets in the 
river that can respond in a timely manner. It takes the Coast Guard 
over one hour to get one of its vessels in the river and approximately 
30 minutes before a helicopter can respond. The Port has requested a 
patrol vessel(s) capable of withstanding the currents of the 
Mississippi River in every TSA round of funding. Every request has been 
denied. The General Kelley's crew and others like it should be 
recognized for the services they provide. Ports need funding assistance 
to purchase vessels, equipment and to defray heightened maintenance and 
operating costs due to increased use for security functions.
    The Harbor Police Department's mission, while once narrowly focused 
on the maritime industry and port community, has always included 
assisting federal, state and local law enforcement agencies. That focus 
has been greatly expanded due to the trend toward greater 
interoperability between law enforcement agencies in many areas 
including: communications, weaponry, intelligence, and weapons of mass 
destruction (WMD) and bio-terrorism readiness. The technological 
equipment, supplies, weapons, training and additional staffing all 
create funding concerns that must be addressed. Training, drills, and 
exercises are costly to conduct. MTSA regulations require that one (1) 
full scale exercise and four (4) drills be conducted annually. The 
planning, equipment and personnel (overtime) requirements are 
significant, especially since other safety exercises related to port 
operations are still needed. The call for interoperability has alerted 
many responding agencies (62nd WMD CST, ATF, NOPD/SWAT, etc.) to the 
fact that they know very little about the maritime community, 
particularly the Mississippi River and the Industrial Canal. Many of 
these agencies have no experience boarding or searching a cargo or 
passenger vessel. The Port Safety and Security Division is often called 
upon to host, coordinate and participate in training for these 
agencies. In no instance has the Port been financially supplemented for 
these endeavors, yet there are costs associated with each request. An 
internal tabletop exercise limited to port employees, private security, 
and U.S. Coast Guard observers will cost approximately $2000.00 in 
administration, supplies, accommodations, and participant salaries. A 
full scale exercise involving outside responding agencies, industry and 
port staff could triple in cost.
    Finally, domestic terrorism such as the World Trade Center 
incidents and the Oklahoma Federal Building bombing prove that being 
reactive to terrorism, from any source, comes at an immeasurable cost - 
loss of lives. Government must respond to the funding needs identified 
by port authorities commensurate with that if the nation's alert 
level--Elevated--Yellow ``Significant Threat of Terrorist Activity'' as 
though it is real and not merely an innocuous memorial of a one-time 
terrorist incident in our nation's past. The only way to do that is to 
create and fund proactive prevention and response initiatives. To do 
less will create frustration among law enforcement agencies, a 
continued vulnerability of critical assets, and perhaps worst of all, a 
false sense of security or a renewed atmosphere of complacency among 
the people. All of which, would contribute to another opportunity for 
history to repeat itself--countless Americans dead, and add yet another 
date to live in infamy.

    Chairman Cox. Our final witness is Dr. McGowan.

STATEMENT OF DEIRDRE McGOWAN, Ph.D., EXECUTIVE DIRECTOR, INLAND 
                RIVERS PORTS AND TERMINALS, INC.

    Ms. McGowan. Thank you, and it is an honor to be here.
    I would like to introduce the current Acting Regional 
Director of the Central Region of the Maritime Administration, 
James Murphy and Avery Rollins, without whom none of what I am 
about to talk about would have been possible.
    I have 5 minutes of speaking time. There are some handouts 
that are available for all of you, so pleaseSec. 
    I would like to directly go to the Recent Inspector General 
Audits of Port Security Grant Programs. There is reason to 
suspect that some, repeat some, grant awards were based on 
politics rather than risk. If not true, the impression is 
understandable. DOT/Maritime Administration and the Coast Guard 
worked in the field to identify ports of greatest concern and 
concurrent corrective action.
    As TSA made the grant awards, only 4 percent of the total 
dollars went to the 300 plus inland ports, which handle 1.3 
billion ton miles of the Nation's waterborne cargo, with 72 
percent of that cargo traveling on the tributaries of the 
Mississippi River. Those that scoff at the risk vulnerability 
relationship of an inland port should remember that Oklahoma 
City was never identified as a prime terrorist target. The 
clusters of refineries and chemical plants along our inland 
rivers are tempting targets indeed. We know it, and Al-Qaeda 
knows it.
    Container Tracking. Important, of course, and not to be 
minimized, but let's remember that the USS Cole was not 
attacked by a container.
    A more likely scenario is a small suicide craft determined 
to block, for example, the Beaumont Ship Channel--narrow, 
vulnerable, potentially toxic and the fourth busiest port in 
the United States. The locks are a weak link in our 
transportation chain, too, and any failure could precipitate 
economic chaos and critical shortages; and there are other such 
vulnerable locations throughout the system. Such tempting 
targets, and not one is a container.
    Proof of Concept. In the beginning of the Port Security 
Grant program, there was a small window opened to creative, 
imaginative solutions which could be tested and, if successful, 
universally replicated. That door was slammed shut. No public 
reason given.
    Limited funding demands that new ideas be considered and 
tested. IRPT received such a grant and was able to provide 
threat analyses and employee education at 59 ports and 
terminals along the inland river system that handled cargoes of 
concern at less than $10,000 each. What a bang for the buck.
    Focus on Technology. Technology is only part of the answer 
but has been extolled by some as the solution to all of our 
security problems but can also be outdated even before 
installation is complete. There has been a surge of so-called 
experts willing to provide technical answers for a price, the 
price often beyond the reach of smaller ports handling 
difficult cargoes. More emphasis needs to be put on ``people 
aspects,'' training eyes and ears. Our own people are our 
greatest resource.
    Stakeholder Involvement. Security solutions have often been 
imposed from the top down, often with mandates. We need more 
public/private cooperative partnerships like the WRAMS, Western 
Rivers Area Marine Security Committee. It is working in 
partnership that will strengthen out country from the water up.
    Since 9/11, there seems to have been more cooperation and 
sharing of information among the various Federal agencies and 
with the private sector. Supporting that continued cooperation 
should be a priority.
    Recovery Efforts. There has been little public attention 
paid to port recovery, whether from terrorism, accident or 
nature. The Maritime Administration has a proven track record 
from efforts in Honduras and Nicaragua following the 
devastation from Hurricane Mitch. I say we better do it now 
before we are jammed up.
    I thank you for this opportunity to testify.
    [The statement of Ms. McGowan follows:]

                 Prepared Statement of Deirdre McGowan

    Security is a process--not an end. I am honored to speak on 
security issues for the inland river system, an integral part of our 
country's economy. I have chosen to write in the first person and to 
speak from my own port security experience. We were already presenting 
seminars on port security as early as January 2000 and by ``we'' I mean 
a cooperative effort with participation from the U.S. Coast Guard, the 
USDOT Maritime Administration with additional cooperation from the FBI 
and representatives from the Justice Department (Alcohol, Tobacco and 
Firearms). I have attempted to make six points in my verbal remarks. 
Here I present an expansion of those observations.

        (1)RECENT INSPECTOR GENERAL AUDITS OF PORT SECURITY GRANTS: 
        There is reason to suspect that some, repeat some, grant awards 
        were based on politics rather than risk. If not true, the 
        impression is understandable. DOT/Maritime Administration and 
        the Coast Guard worked in the field to identify ports of 
        greatest concern and concurrent corrective action. As TSA made 
        the grant awards, only 4 percent of the total dollars went to 
        the 300 + inland ports, which handle 1.3 billion ton miles of 
        the nation's waterborne cargo with 72 percent of that cargo 
        traveling on the tributaries of the Mississippi River. Those 
        that scoff at the risk/vulnerability relationship of an inland 
        port should remember that Oklahoma City was never identified as 
        a prime terrorist target. The clusters of refineries and 
        chemical plants along our inland rivers are tempting targets 
        indeed. We know it and Al-Quaida knows it.

    The audit actually reported, ``the program has not yet achieved its 
intended results in the form of actual improvements in port security.'' 
Ninety-five percent of all international commerce enters the United 
States through the 350 ports but 80 percent moves through only 10 
ports. That makes those ten particularly attractive targets--damage 
could cause many deaths, injuries and seriously disrupt the flow of 
goods and by extension our entire economy. The inspector general found 
that the Department of Homeland Security appeared to be intentionally 
distributing the money as widely as possible -hence the term ``pork 
security''. An analysis will reveal a need for broad assistance to many 
ports, large and small and further that a fundamental doctrine of anti-
terrorism is hardened targets invite strikes against more vulnerable 
one.
    For example, the audit criticized grants awarded to St. Croix (were 
they aware that as many as 80,000 passengers a week ply the Virgin 
Islands? Protecting people is a priority too). They criticized an award 
to Everett, Mass.--home to one of the country's most important 
liquefied natural gas facilities--and near a major metropolitan area 
besides. Furthermore, any weapon of mass destruction smuggled in 
through a small port could as easily paralyze U.S. economic activity as 
one brought into a large port.
    (Reference: New York Times February 20, 2005 and Port Security News 
Service, March 3,2005)

        (2) CONTAINER TRACKING: Important of course and not to be 
        minimized. But let's remember that the USS Cole was not 
        attacked by a container! A more likely scenario is a small 
        suicide craft determined to block, for example, the Beaumont 
        4th busiest port in Ship Channel--narrow, vulnerable, 
        potentially toxic, and the the United States. The locks are a 
        weak link in our transportation chain, too, and any failure 
        could precipitate economic chaos and critical shortages--and 
        there are other such vulnerable locations throughout the 
        system. Such tempting targets--and not one is in a container.

    The fourth leading port in terms of tonnage in 2002, (with 85.9 
million short tons of foreign and domestic shipments), is rarely 
recognized Beaumont, Texas, also the home of one of our National 
Defense Reserve Fleets, miles of pipelines and is one of the top 
military deployment ports. The narrow channel's vulnerability is 
analogous to that of a BB stuck in the sand of an hourglass--nothing 
can get through until it is un-jammed. And then there are the locks 
above St. Louis and along the navigable tributaries. A lock shut-down, 
(whether by knowledgeable terrorists, accident or lock failure) 
jeopardizes our grain exports, fuel shipments, power plant supplies and 
other critical components of the economy. Attempts to direct marine 
freight to other modes will fail because of congestion. Few recognize 
that Huntington, West Virginia, an inland port on the Ohio, handles 80 
million short tons a year--much of it in petroleum and coal. Let's 
don't deny that shutting off power supplies, petroleum products and our 
entire economy is as simple as a well-placed suicide boat on a mission 
or even underwater infiltration and concurrent detonation. We still 
don't know how to differentiate that one lethal craft from the everyday 
flotilla of pleasure boats plying every river in this country. The 
enormity of our responsibility for port security extends from our 
coasts and up every navigable river throughout the system.
    There are surely many dedicated capable professionals working to 
solve the problems associated with multiple container screenings at 
ports already backlogged. Supply chain safety has to be an essential 
element of our homeland security plan but is beyond the scope and 
experience of IRPT.
    (Reference: The U.S. Waterway System--Transportation Facts, 
Navigation Data Center, U.S. Army Corps of Engineers)

        (3) PROOF OF CONCEPT: In the beginning of the Port Security 
        Grant program, there was a small window opened to creative, 
        imaginative solutions--which could be tested and, if 
        successful, universally replicated--that door was slammed shut 
        -no public reason given. Limited funding demands that new ideas 
        be considered and tested. IRPT received such a grant and was 
        able to provide threat analyses and employee education at 
        fifty-nine ports and terminals along the inland river system 
        that handled cargoes of concern at less than $10,000 each. What 
        a bang for the buck!

    IRPT was able to complete threat assessments at 59 ports and 
terminals within a one year time frame. They were selected by the 
various USCG Captains of the Port as warranting special attention 
because they handled cargoes of concern. A summary of our findings, 
with appendices, is made a part of this report to the House Homeland 
Security Committee. The individual findings were provided to each port/
terminal with copies forwarded to the Maritime Administration, USCG and 
the Transportation Security Administration. No, not all of the 59 were 
members of our association--our criteria were USCG identified ports/
terminals.
    None of this public service would have been possible had it not 
been for the Proof of Concept provision in Round I of the Port Security 
Grant Program. When this provision was severed without public 
explanation, then small, replicable and universally applicable 
solutions were also severed and the grant money was seemingly tied to 
hardware at specific ports--and in some cases to private for-profit 
property contiguous to a river or port. Yes, IRPT applied again with 
ideas that could have solved problems shared by many ports 
(communications interoperability, a port recovery plan, additional 
threat assessments, etc.) but was rejected since there was no longer a 
proof-of-concept provision and IRPT, of course, was not a port per se. 
It may have been that the need for ``hardware'' should have had 
priority, but in these later stages the need for innovation seems 
apparent.

    (4)FOCUS ON TECHNOLOGY: Technology is only part of the answer--but 
has been extolled by some as the solution to all of our security 
problems--but can also be outdated even before installation is 
complete. There has been a surge of so-called experts willing to 
provide technical answers for a price--the price often beyond the reach 
of smaller ports handling difficult cargoes. More emphasis needs to be 
put on ``people aspects''--training eyes and ears. Our own people are 
our greatest resource.

    I've been to meetings and heard presentations on all sorts of new 
technologies--surveillance, bio-identification, container tracking and 
more. But while effective and necessary, these are also expensive and 
beyond the reach of many of the smaller ports-even though they may 
handle very hazardous cargo. There seems to be little public discussion 
paid to technology to protect the ports from waterside infiltration. 
Hopefully, technology is in the developmental stage for this particular 
area of vulnerability.
    The point is that the training of our waterside hourly employees 
seems to have been somewhat overlooked. Suspicious activity is now 
reported to the Coast Guard and that reportingisappreciated--but 
requires many man hours to investigate. Part of the problem has to be 
that some of those reporting ``suspicious activity'' have not been 
trained in the identification of anomalies and are unable to 
differentiate the real threat from the phantom threat. Whether training 
a high school drop-out receptionist to deal with a bomb threat to the 
fork-lift operator reporting a person of interest, our people are our 
eyes and ears, but their observation skills may need honing. How many 
times has each of us been the victim of an expensive technological 
glitch? Our workers need education on terrorism awareness and are 
hungry for it, (see their comments incorporated into the final ITPT 
report attached).

        (5) STAKEHOLDER INVOLVEMENT: Security ``solutions'' have often 
        been imposed from the top down, often with mandates. We need 
        more public/private cooperative partnerships like the WRAMS 
        (Western Rivers Area Marine Security). It is working in 
        partnership that will strengthen our country from the water up. 
        Since 9/11 there seems to have been more cooperation and 
        sharing of information among the various federal agencies and 
        with the private sector. Supporting that continued cooperation 
        should be a priority.

    Yes, the WRAMS is an excellent start. It is interesting and 
rewarding to participate in the fluctuating dynamics of discussion from 
totally different perspectives. I am convinced the recommendations 
evolving from WRAMS are stronger and more effective than any of the 
participants could generate alone. Even more public / private 
partnerships should be encouraged--perhaps along the lines of our 
harbor-safety committees.
    At the Transportation Research Board Marine Technology Committee 
Conference last November there were presentations made on cutting edge 
technologies--all very impressive and all out of reach. Both the 
stakeholder panel and audience response, (the speaker left before 
hearing the stakeholder response or answering any questions), was a 
litany of low-tech requests for assistance--such as a call-in number 
for guidance since templates really serve no purpose in developing 
vessel and security plans. They wanted to understand the relationships 
among risk, vulnerability and threat-and wanted that understanding 
related to the requirements of their own security plans. Some of the 
ports have seemed definitely doomed to overkill.

    (6) RECOVERY EFFORTS: There has been little public attention paid 
to port recovery--whether from terrorism, accident or nature. The 
Maritime Administration has a proven track record from efforts in 
Honduras and Nicaragua following the devastation from Hurricane Mitch--
couldn't we tap into that expertise and develop functional recovery 
plans?

    I have been told that the hesitancy in developing port recovery 
plans is tied to a public relations concern that there would be a panic 
reaction to ``preparing for the worst''. Maybe so. Nevertheless, we saw 
what happens to freight movement and passenger congestion when an 
accident blocked traffic at the Port of New Orleans for a few days--and 
that disruption was minimal with no infrastructure damage. I think we 
need to confront the possibility of port shutdown due to terrorism or 
nature. Various governmental agencies have their own plans in place but 
I am unaware of a comprehensive, multi-jurisdictional, multi-agency 
cooperative plan.
    When Hurricane Mitch devastated Honduras and Nicaragua, the 
Maritime Administration, National Oceanic and Atmospheric 
Administration, the US Army Corps of Engineers, FEMA and other federal 
agencies worked together to re-develop the ports. They learned many 
lessons that could be applied, extrapolated and enhanced into recovery 
plans for our ports. Advances in technology could provide a multi-
layered set of action plans covering almost every contingency.
    In summary, I believe there needs to be less rigidity in the 
application of the Port Security Grant Program--and the recommendations 
of the USCG/MARAD teams need to be incorporated into any such award. We 
have to continue exploring technological options and at the same time 
we need to better use our people on site. We can do so by listening, 
respecting and educating. The encouragement of more public/private 
partnerships (like WRAMS) striving to develop individual solutions as 
opposed to imposed mandates could cut the expenses for the Department 
of Homeland Security, the taxpayers and the ports themselves. All of us 
need to face reality and develop recovery plans together.

Final Report for:

  Inland Rivers, Ports and Terminals, Inc.--Preliminary Port Facility 
              Assessments per Requirement of DTMAl G02028

     Prepared by: Deirdre McGowan, Ph.D., Executive Director, IRPT

                    www.irpt.net / adminrtVirpt.net

Port Security Grants, Round 1, Proof of Concept: June 17, 2002-
September 30, 2003

REPORT OVERVIEW

Introduction
Project Objectives
Process
Project Results
General Observations
Implications for Port Security
Further Actions
Appendices

INTRODUCTION
    The 303 inland river ports and 1,800 shallow draft terminals are of 
national economic and strategic importance, representing $1.5 trillion 
in cargo and 13 million jobs that generate $500 billion in personal 
income. They move numerous products and military materiel vital to U.S. 
economic interests.
    Inland Rivers, Ports and Terminals, Inc., has been the industry's 
professional association since 1974. The Board of Directors and general 
membership voted to allow IRPT to negotiate and serve as fiscal agent 
for this grant. The actual security assessments and employee education 
presentations were subcontracted by IRPT.

PROJECT OBJECTIVES

Proof of Concept
    Security risk assessments were to be completed on selected inland 
port infrastructure systems including personnel training, physical and 
technical analysis and operational considerations.
                <bullet> Complete risk assessments at inland river 
                ports and terminals that handle cargoes of concern
                <bullet> Identify security risks unique to each port
                <bullet> Determine the effectiveness of the security 
                protection system currently in place at each port
                <bullet> Initiate employee training in identification 
                and reporting of observed anomalies
                <bullet> Complete modified generic port fault tree for 
                all ports assessed
                <bullet> Identify possible corrective actions for each 
                port assessed

Project Objectives--Success
Per the commitments made in the grant application, the assessment and 
training approaches developed and applied by Inland Rivers, Ports and 
Terminals, Inc., are replicable, quantified, standardized, accountable, 
traceable, consistent in terminology, and defensible.
                <bullet> Risk assessments were completed at 59 inland 
                river ports and terminals that were identified and 
                prioritized by USCG as handling cargoes of concern. 
                They are listed in Appendix A with their completion 
                dates.
                <bullet> Blind evaluations by facilities managers of 
                the process were returned to the IRPT offices and a 
                collation of those ratings has been made a part of this 
                report as Appendix B.
                <bullet> A list of all of the ``positives'' uncovered 
                at the various facilities has been made a part of this 
                report as Appendix C.-A list of all of the 
                ``negatives'' uncovered at the various facilities has 
                been made a part of this report as Appendix D.
                <bullet> Employee training was implemented with 212 
                employees attending, with course evaluations completed 
                by most of them. A summary of their evaluations is 
                enclosed as Appendix E.
                <bullet> Security recommendations for each port were 
                developed and prioritized.

PROCESS

Pre-Assessment
This was a new endeavor and had to meet all commitments made in the 
proposal, comply with procurement requirements, incorporate the input 
from the IRPT officers and provide guidance and insight to the 
facilities assessed. Concurrently it had to be flexible to incorporate 
any agreed upon changes requested by the granting agencies or by IRPT.
                <bullet> Advertised nationally for Statements of 
                Interest and Qualifications.
                <bullet> Developed Request for Proposals.
                <bullet> Forwarded Request for Proposals to all who had 
                responded to request for statement of I & Q and all 
                others who requested it (total 14).
                <bullet> Preliminary screening undertaken utilizing 
                responsiveness to request and qualifications of 
                principals as criteria.
                <bullet> Responses reviewed by IRPT Executive Committee 
                and Chairman, IRPT Security Committee.
                <bullet> Contract award ranking determined at IRPT 
                Board meeting September 4, 2003.
                <bullet> Contractor references verified.
                <bullet> Contract awarded and subsequently negotiated. 
                Biographical information on the consultants is included 
                as Appendix F.
                <bullet> Assessment procedures and employee curriculum 
                developed.
                <bullet> System test scheduled for October 16, 2003 at 
                Port Bienville, MS.
                <bullet> Invitations to observe/participate/critique 
                initial assessment issued to USCG, USACOE, MARAD.
                <bullet> Preliminary assessment undertaken and systems 
                for management feedback and training evaluations 
                refined.
                <bullet> USCG Captains of the Ports contacted through 
                District 8 Headquarters to request their selection of 
                ports to be prioritized for assessments.
                <bullet> Scheduling port assessments begun and 
                continued through June, 2003.
                <bullet> Initial scheduling packets forwarded to each 
                port director to confirm verbal scheduling 
                commitments--packets included an overview of the grant 
                specifications, biographical information on the 
                consultants, and a copy of the USCG Facility Security 
                Planning Guide for their initial use.
                <bullet> Individual visits made to each identified 
                facility to review the responses to the Facility Guide 
                and follow through with the assessment process.
                <bullet> Assessments implemented beginning December 10, 
                2002.

Problems Identified
During the course of the project, numerous problems surfaced. Guidance 
was requested from MARAD and/or USCG. Problem statements were forwarded 
to them with requests for suggestions or direction.
                <bullet> Scheduling the assessments was extremely 
                difficult and took much longer than anticipated.
                <bullet> The Inland River Guide and the Journal of 
                Waterborne Commerce Statistics were used to assist in 
                the identification of facilities handling cargoes of 
                concern. Some of that information was dated or 
                erroneous.
                <bullet> Many national companies would not participate 
                because of their perceived exposure to subsequent 
                litigation.
                <bullet> Some employees were not available for training 
                for various reasons and the training was requested on 
                video.
                <bullet> There was a nebulous definition of what 
                constituted a public port/terminal.
                <bullet> USCG requested that several Texas ports be 
                assessed that did not meet the criteria for ``inland'' 
                port but are considered as part of the inland water 
                transportation corridor.
                <bullet> Access to the USCG security assessment format 
                identified as PISRAT 2.0 was lacking.
                <bullet> In some instances, terminals handling CDCs 
                (Certain Dangerous Cargoes) were unwilling to provide 
                details regarding product amounts handled or stored, 
                citing ``proprietary information.''

Resolutions Incorporated
A combination of email, telephone responses and personal contact 
yielded constructive solutions to many of the problems identified which 
impacted completion of the project.
                <bullet> Scheduling: Began scheduling process sixty 
                days out and adjusted time-spent estimates per port/
                terminal accordingly.
                <bullet> Data: Recognized that some cargo data was 
                erroneous. As one response replied, ``the only 
                consolation has been, is, and will be, that some data 
                are better than none.''
                <bullet> Declination: Proceeded without including any 
                facility that declined assessment. One response to IRPT 
                stated, ``Those who did not choose to participate in 
                Round I will want to get in later.''
                <bullet> Video Training: Generated bids to produce a 
                training video but had no suitable budget category in 
                the grant for implementation.
                <bullet> Public Port: Agreed upon an operational 
                definition that a private terminal is closed to common 
                carriage and is so located that a terrorist incident 
                would not affect the public at large. The exception to 
                that definition would be if a port or terminal was such 
                that its disruption would have an adverse effect upon 
                the commerce of the United States.
                <bullet> IRPT assessed the additional quasi-bluewater 
                ports as requested by the Captains of the Ports.
                <bullet> PISRA T 2.0: Access was requested to enable 
                those undertaking the IRPT threat assessment process to 
                adjust the reporting format as necessary to comply with 
                the specifications of NVIC 11-02. After several 
                discussions, IRPT operated from the assumption that the 
                reporting format did comply with those requirements and 
                proceeded accordingly.

PROJECT RESULTS
At the conclusion of the project, the identified inland river ports had 
assessments completed and available employees had been trained in 
various aspects of terrorism recognition and intervention. 
Effectiveness of the security protection system currently in place and 
recommendations for improvement were presented at management de-
briefings at the conclusion of each visit. Written reports for the 
facility directors followed shortly thereafter.
                <bullet> Summaries of vulnerabilities and strengths are 
                included in the appendices attached.
                <bullet> Printed and CD-ROM reports for each port/
                terminal were forwarded to MARAD throughout the year 
                with copies provided for distribution to USCG and TSA.
                <bullet> Photographs of each port/terminal indicating 
                areas of concern were included in the CD-ROM 
                transmittals.
                <bullet> Printed copies of each report, with pictures, 
                were provided to MARAD with a copy retained by IRPT.
                <bullet> Employees who participated in the training 
                provided comments such as ``very good and timely 
                information'' and ``trainers very knowledgeable of the 
                subject.'' Additional comments are a part of Appendix 
                E.
                <bullet> A CD-ROM of the training offered to port and 
                terminal employees has been made a part of this report.
                <bullet> The assessments were of great assistance to 
                the facilities since they were deemed to provide what 
                was necessary to comply with NVIC 11-02.
                <bullet> The assessments often provided the basis for 
                subsequent security enhancement requests from either 
                TSA or individual port commissions.
                <bullet> PorT directors and terminal managers who 
                forwarded their evaluations of the process were 
                universally positive, as seen in Appendix B.
                <bullet> Copies of the assessment reports were 
                forwarded to each facility director via certified mail, 
                return receipt requested.
                <bullet> Law enforcement personnel and facility 
                security officers attending the training sessions 
                requested copies of the PowerPoint presentation 
                ``Terrorism Awareness``for use in their own training.

GENERAL OBSERVATIONS:
In completing the threat assessments and questioning/listening to staff 
and employees at the various ports, several factors appeared to be 
almost universally applicable.
                <bullet> Generally speaking there is a lack of security 
                awareness even at the facilities handling cargoes of 
                concern.
                <bullet> Facility directors were aware they needed 
                security improvement and they were interested in making 
                their facilities more secure but lacked knowledge of 
                security issues and techniques.
                <bullet> Facility directors generally had no concept of 
                what makes a facility secure.
                <bullet> There was little general awareness of NVIC 
                requirements regarding facility operation even if the 
                facility was handling dangerous cargo.
                <bullet> There are many small ports in the inland river 
                system that need attention but can't afford to 
                implement security measures.

IMPLICATIONS FOR PORT SECURITY
The results of the IRPT Threat Assessment and Employee Education 
Project suggest some of the following implications:
                <bullet> There needs to be a standardized plan and 
                approach to address inconsistencies.
                <bullet> There need to be standard definitions applied 
                universally.
                <bullet> There needs to be a better identification and 
                tracking system for cargoes of concern.
                <bullet> The river system needs to be viewed as a 
                single entity rather than a series of discrete units.
                <bullet> Port security should be developed on a 
                regional basis.

FURTHER ACTIONS
Standardize the application of U.S. Coast Guard regulations for similar 
facilities which handle CDCs (Certain Dangerous Cargoes), such as those 
for operating a facility that handles ammonium nitrate fertilizer.
                Example: One facility had open bays of ammonium nitrate 
                (no locked doors); their front end loaders were parked 
                nearby and accessible to anyone; there was no perimeter 
                fence around the facility; the road leading to the 
                facility was essentially a public road with no 
                restriction to public access; there were no alarm 
                systems and the area was poorly lit. The facility 
                operator advised that the USCG inspected them on a 
                yearly basis. A second facility of similar size and 
                location that handled ammonium nitrate was directed by 
                the USCG to have a 24/7 presence at the facility. The 
                facility hired additional staff to meet USCG 
                requirements. The facility had closed and locked doors 
                at the storage area, there was a perimeter fence around 
                the facility and it was well lit.
Urea is a fertilizer found in many terminals serving the needs of the 
agricultural industry and those storage areas should be included in 
subsequent threat assessments.
                    Although not as easy to use as ammonium nitrate in 
                the construction of a bomb, urea can be used in 
                constructing a powerful explosive compound. The main 
                explosive charge at the World Trade Center bombing of 
                February 1993 was an improvised explosive device 
                utilizing a urea base. The resulting blast produced a 
                crater 150 feet in diameter and five floors deep. 
                Section 841(d) of the United States Code (U.S.c.) and 
                27 CFR 55.23 refer to urea as an explosive material.
                    Certified courses of study on port security should 
                be developed for facility directors and managers and 
                required as part of continuing education.
                    The balance of the smaller inland ports should be 
                assessed and guidance provided to the directors for 
                increased security enhancement.
                    A standard protocol should be developed for 
                certification of security assessments performed in the 
                private sector to ensure that they meet U.S. Coast 
                Guard specifications.

                 APPENDIX A--PORTS & TERMINALS ASSESSED

            Port                     Terminals          Assessment Date

Alabama
Florence--Lauderdale          Tennessee Southern       Apr 23-24, 2003
County Port Authority          Railroad, American
James Lowe--Exec. Dir.         Metal Chemical Corp.,
PP. O. Box 1169                Muscles Shoals Marine
Florence, AL 35631             Service, Inc., F&L
                               Sand & Gravel (Rudolph
                               Marine & Salvage
                               L.L.C.), Roberson
                               Scrap Works,
                               Lauderdale (Alabama)
                               Farmers Coop, Royster
                               Clark

Arkansas
Port of Little Rock
Paul Latture--Exec. Dir.
7500 Lindsey Road
Little Rock, AR 72206
                              Logistics Services,      Feb 5-7, 2003
Yellow Bend Port Authority
Kenny Gober--Exec.Dir.
P. O. Drawer 725
McGehee, AR 71654
                              Oakley Port of Yellow    Feb 2, 2003
Miller's Bluff Port
Cross Oil Terminal
Charles Clark-Manager
484 East 6th St.
Smackover, AR 71762
                              Cross Oil Terminal       Feb 3-4, 2003
Louisiana                     .......................  .................
Alexandria Regional Port
John Marzullo--Exec. Dir.
P. O. Box 628
Alexandria, LA 71303
                              Terral River Services    Jan 15-16, 2003
Port of Shreveport--
Bossier
John W. Holt--Exec. Dir.
P. O. Box 52071
Shreveport, LA 71135
                              Oakley Louisiana, Inc.,  Jan 12-15, 2003



            APPENDIX A--PORTS & TERMINALS ASSESSED--Continued

            Port                     Terminals          Assessment Date

Mississippi
Port of Aberdeen
PerryLucas--Port Dir.
125 West Commerce
Aberdeen, MS 39730
                              Tom Soya Grain Company,  Apr 21-22, 2003
Greenville Port Commission
Harold Burdine--Port Dir.
P. O. Box 446
Greenville, MS 38701
                              Greenville Port          May 27-28, 2003
Hancock County Harbor
& Port Commission
Hal Walters--Port Dir.
P. O. Box 2267
Bay St. Louis, MS 39521
                              Linea Peninsular,        Oct 15-16, 2002
Natchez--Adams
County Port Commission
Pat Murphy--Port Dir.
P. O. Box 925
Natchez, MS 39121
                              Natchez Port Terminal    Jan 7-8, 2003

Warren County
Port Commission
Jimmy Heidel--Port Dir.
P. O. Box 709
Vicksburg, MS 39181
                              Kinder Morgan            Nov 18-20, 2003
Yazoo County
Port Authority
Gerald P. Fraiser--Port Dir.
P. O. Box 172
Yazoo City, MS 39194
                              MissChem Nitrogen        Jan 6-7, 2003
Missouri
Howard/Cooper County
Regional Port Authority
Paul Davis-Operator
609 Main Street
Boonville, MO 65233
                              Interstate Marine        Apr 10-11, 2003
Kansas City Port Authority
(Midwest Terminal)
DavidGriffin--VicePresident
For Operations
1851Woodswether Rd
Kansas City, MO 64105
                              Midwest Terminal         Apr 7-8, 2003
New Madrid County
Port Authority
Timmie Lynn Hunter--
Exec. Dir.
435 Main Street
New Madrid, MO 63869
                              St. Judel/New Madrid,    June 1-2, 2003

Pemiscot County
Port Authority
David Madison--Exec. Dir.
619 Ward Avenue
Caruthersville, MO 63830
                              Trinity Marine Products  June 3-5, 2003



            APPENDIX A--PORTS & TERMINALS ASSESSED--Continued

            Port                     Terminals          Assessment Date

Missouri
Southeast Missouri
Regional
Port Authority
Dan Overby--Director
2110 Main Street
Scott City, MO 63780
                              Girardeau Stevedores     May29--June2 2003
Oklahoma
Muskogee City--County
Port Authority
Scott Robinson--Dir.
4901 Harold Scoggins Dr.
Muskogee, OK 74403
                              Muskogee City Water      Feb 20-22, 2003
Tulsa Port of Catoosa
Dick Voth--Director
5350 Cimarron Road
Catoosa, OK 74015
                              Brenntag Southwest,      Feb 17-20, 2003

Pennsylvania
Pittsburgh Port Comm.
James McCarville--Ex. Dir.
425 Sixth Avenue
Suite 2990
Pittsburgh, PA 15219
                              Neville Chemical         Dec 9-18, 2003
Tennessee
Port of Chattanooga
(J I T Terminal)
John Bennett--Manager
P. O. Box 4800
530 Manufacturers Road
Chattanooga, TN 37405
                              J I T Terminal           May 7-8, 2003
Texas
Port of Brownsville
Raul B. Besteiro--Dir.
1000 Foust Road
Brownsville, TX 78521
                              Austin Star Detonator,   Jan 29-31, 2003

Port Isabel--San Benito
Navigation District
Robert Cornelison--Dir.
250 Industrial Drive
Port Isabel, TX 78578
                              Port Isabel              Mar 24-25, 2003
Victoria County
Navigation District
Howard Hawthorne--Exec. Dir
P. O. Box 2760
Victoria, TX 77902
                              Equalizer,Inc            Jan 28-29, 2003


              APPENDIX B--FACILITY MANAGEMENT EVALUATIONS

The form for the Port Management Evaluation of Threat Assessment and 
Employee Training is handed to port management by the consultants to be 
forwarded directly to IRPT. Thus anonymity is protected.
14 Total Returns
        (1) Did the persons conducting the Threat Assessment and 
        Employee Training act in a professional manner while conducting 
        the assessment?
                Yes 14
Comments:
Very professional.
Very much so.
Both men did an excellent job. We had nine people attend the training 
and they were very pleased with the information provided.
On time. Required expertise. Good communication skills. Took time to 
explain. Gave detailed outbriefing.
Very knowledgeable and conducted themselves in a very professional 
manner.
        (2) Were they friendly and courteous to port and facility 
        employees?
                Yes 14
They put everyone at ease.
Yes and to neighboring companies visited as part of the assessment.
They put everyone at ease.
        (3) Were they on time for appointments and meetings?
                Yes 14
They were early due to air travel, no problem.
Yes, both days. Kept me advised.
Never a problem.
Early due to air travel, no problem.
        (4) Did they answer your questions on port and facility to your 
        satisfaction?
                Yes 14
They provided some very valuable insight to the problem at hand.
Very Good information.
They answered the questions to my satisfaction.
Questions were encouraged and answered.
Very knowledgeable.
They were informative and offered good suggestions.
All questions were answered.
                (5) Other comments
This was a long trip with poor connections from Mississippi.
I greatly appreciated the help.
Excellent and professional in all aspects.
They did a wonderful job on the assessment as well as the training 
session.
Both possess excellent communication skills. Our crew members were 
attentive and interested throughout the training session.
They gave me all the information I requested and agreed to send 
additional information.
I believe they are doing an excellent job for IRPT.
I do not understand why type and amount of product flowing through the 
port are not factors included/considered as a part of vulnerability/
threat assessment.
Very informative and worthwhile.
We were very pleased with the professionalism. The training and 
assessments provided by them will be of value in completing our port 
security plan.
We appreciate IRPT selecting our facility to receive the benefit of 
this service.
Excellent and professional in all aspects.
Very helpful in guiding us in the right direction on our security 
needs.
We had already made some assessments on our own and they agreed with 
our comments and expanded in some areas where we were lacking.
They also were very cooperative with our tenants and answered all 
questions posed to them.
Very good information. They answered the questions to my satisfaction. 
Some of the information provided is now being used as part of our 
security procedures.

                     APPENDIX C--POSITIVE FINDINGS

Emergency Preparedness
        <bullet> The Port has established a Port Security Committee, 
        which will complete Port Security Plan security enhancements.
        <bullet> The Port has an excellent emergency communications 
        system to notify and update tenants of an emergency in the 
        Port.
        <bullet> Liaison with community groups, law enforcement and 
        public safety offices are excellent.
        <bullet> The U. S. Coast Guard required Port and Facility 
        Security Plans were discussed and the initial draft of the 
        Port's Security was reviewed with management during the 
        assessment.
        <bullet> The Port has in place Emergency Response Plans 
        including Threatening Communications (Bomb Threats), Workplace 
        Violence and Criminal Incident Response Plans.
Appendix C--Continued
Physical Security & Access Control
        <bullet> Terminal's good housekeeping practices demonstrate 
        attention to the facility and it provides a passive security 
        deterrent.
        <bullet> Vehicle access to the facility is controlled by card 
        access.
        <bullet> The facility has an excellent perimeter fence.
        <bullet> The truck loading rack is located within the fenced 
        secure area.
        <bullet> The truck rack is operated by the same card access 
        system used at Red River Terminal.
        <bullet> The tank farm is secured with a perimeter fence.
        <bullet> The facility is well lighted.
        <bullet> The perimeter fence line is well maintained.
        <bullet> Visitors sign in and are issued badges.
        <bullet> Port tenants have adequate perimeter fencing and 
        lighting.
        <bullet> The Port has identified and is considering several 
        access control security improvements.
        <bullet> The Port office is alarmed.
        <bullet> Proper signage directing visitors to the office and/or 
        security procedures.
        <bullet> The property is legally posted including land side and 
        waterside for possible trespassing prosecution.
        <bullet> The receptionist has a panic alarm.
Human Resources
        <bullet> Employee security awareness is at the appropriate 
        level.
        <bullet> Facility has a drug and alcohol policy.
        <bullet> Two-man company driver teams make truck shipments of 
        product. Background investigations are conducted on new 
        employees of the Port.
        <bullet> Port has its own security guard service.
        <bullet> Facilities within the Port have their own security 
        guard services.

Physical Location
        <bullet> Located in a developed end of the property within 
        sight of a Sheriff's Deputy's residence.
        <bullet> Facility handling explosives is remotely located in 
        the Port with a large buffer zone from other port tenants.
        <bullet> Former employee lives near entrance to Port located in 
        rural area.
        <bullet> Current employee lives on Port property.

Other
        <bullet> Facility has a recent history of minimal or no 
        security incidents.
        <bullet> Portable equipment and materials are secured after 
        hours.
        <bullet> The Port has a State Police Water Patrol craft moored 
        in the Port.

                     APPENDIX D--NEGATIVE FINDINGS

Emergency Preparedness
        <bullet> General lack of awareness of U.S. Coast Guard NVICs 
        (Navigation and Vessel Inspection Circulars) requirements for 
        certain ports and facilities.
        <bullet> Lack of liaison with local Emergency Response 
        organizations and lack of emergency response plans.
        <bullet> The Port has no Emergency Response Plans.
        <bullet> Emergency Response Plans do not include security 
        subjects such as: threatening communications, bomb search 
        plans, workplace violence or employee security awareness 
        training.
        <bullet> The Port lacks a Threatening Communications Response 
        Plan.
        <bullet> The Port has not established a Port Security 
        Committee.
        <bullet> The Port has no emergency communications system to 
        notify and update tenants of an emergency in the Port.
        <bullet> Liaison with community groups, law enforcement and 
        public safety offices needs improvement.

Physical Security & Access Control
        <bullet> The facility does not have a perimeter fence.
        <bullet> A portion of the facility is unfenced.
        <bullet> In some instances, tenant perimeter fencing is 
        inadequate.
        <bullet> There is no formal access control system.
        <bullet> There are multiple uncontrolled public ingress/egress 
        routes.
        <bullet> Public access to the levee road, barge channel and 
        turning basin is unrestricted.
        <bullet> The current Closed Circuit Television system (CCTV) 
        does not include recording outgoing traffic.
        <bullet> The facility does not have an intrusion detection 
        system.
        <bullet> Public road and railroad right-of-way are access 
        points for undetected intrusion.
        <bullet> Trucks waiting to load are allowed to park adjacent to 
        an unattended ammonium nitrate facility after hours.
        <bullet> The truck rack is unsecured and is accessible to the 
        public via the port's unsecured public road.
        <bullet> Truck drivers park in the immediate area at night 
        awaiting early morning loading.
        <bullet> Facility lighting is minimal in the tank farm and 
        employee parking lot.
        <bullet> There is no CCTV coverage of the unmanned truck rack 
        or the office where the operating computers are located.
        <bullet> The facility is unattended between 11:00 p.m. and 5:00 
        a.m.
        <bullet> Fencing does not segregate the employee parking lot, 
        truck loading/unloading areas and the tank farm.
        <bullet> Key control of the two secured gates is compromised 
        and proper gate locking procedures are not followed. The gates 
        have been improperly locked, negating the tenant's lock 13 
        times in 7 months of operation.
        <bullet> The facility shares a dock with other tenants and 
        there is no CCTV coverage of the dock.
        <bullet> The Port office is not alarmed.
        <bullet> There is a significant volume of anticipated truck 
        traffic, 50-70 trucks/day, with personal recognition as the 
        accepted access control method.
        <bullet> There is a lack of signage directing visitors to the 
        office and/or security procedures.
        <bullet> The property is no legal posting of the property, 
        either land side or waterside for possible trespassing 
        prosecution.
        <bullet> There is a high volume of seasonal truck traffic.
        <bullet> There is public access to the Port 24 hours a day.
        <bullet> There is no electronic monitoring of vehicle traffic 
        at the ingress/egress gate or within the Port area.
        <bullet> There is no after-hours surveillance of an ammonium 
        nitrate facility's wharf or fleeting areas.
        <bullet> An unfenced ammonium nitrate facility is located on a 
        publicly accessible road with open loading bays and loading 
        equipment parked nearby.
        <bullet> Public tours of the Port are promoted with minimal 
        oversight.
        <bullet> There is unrestricted access to the Port Offices via 
        the rear entrance.
        <bullet> The receptionist does not have a panic alarm.
        <bullet> There is no telephone record capability for the 
        primary telephone operator at the Port's office.
Appendix D--Continued
Human Resources
        <bullet> The Port or facility does not have an alcohol and drug 
        policy.
        <bullet> The Port or facility does not conduct background 
        investigations on new employees.
        <bullet> Port does not have a security guard service.
        <bullet> Critical facilities within the Port do not have their 
        own security guard servIces.

Physical Location
        <bullet> Barge fleeting operations extend to remote area of the 
        waterway.
        <bullet> The Port or facility is located in a high crime area.
        <bullet> Port or facility location is remote with little law 
        enforcement patrol presence.

Other
                <bullet> There is a City-County Park located within the 
                Port's property.
                <bullet> There is no regular water patrol of the 
                Turning Basin.
                <bullet> A Port Museum is included in the same building 
                with the Port offices. Facility has regular criminal 
                incidents.
                <bullet> Port or terminal's housekeeping practices need 
                improvement.

                     APPENDIX E--Employee Training

    July 8, 2003

           IRPT Threat Assessment/Employee Education Project

                          Seminar Evaluations

Total Responses 24
* Cumulative 151 (Includes numbers from February 21,2003 report)
                                5 = high 1 = low
        a. The instructor organized material effectively.
                   5: 18 = 75% 4: 5 = 21%3: 1 = 4%
Cum. (151) 110 = 73% 38 = 25% 4 = 2%
        b. The instructor was knowledgeable of subject matter.
                   5: 20 = 87% 4: 2 = 9% 3: 1 = 4%
Cum. (153) 128 = 84% 22 = 14% 3 = 2%
        c. The instructor presented information clearly and at a proper 
        pace.
                   5: 15 = 65% 4: 8 = 33% 3: 1 = 4%
Cum. (149) 105 = 70% 40 = 27% 5 = 3%
        d. The length of the course was appropriate.
                   5: 7 = 29% 4: 12 = 50% 3: 4 = 17% 2: 1 = 4%
Cum. (146) 93 = 64% 46 = 32% 8 = 5% 1 = .1
        e. Course goals were met.
                   5: 11 = 46% 4: 8 = 33% 3: 4 = 17% 2: 1 = 4%
Cum. (154) 84 = 55% 57 = 37% 13 = 8% 1 = .1%
        f. Overall how was this in meeting your expectations?
                   5: 9 = 38% 4: 11 = 46% 3: 3 = 13% 1: 1 = 4%
Cum. (154) 74 = 48% 63 = 41% 14 = 9% 2: 2 = 1.3% 1: 2 = 1.3%

Comments:
I felt that more time could have been given toward recognizing 
potential terrorist activity. Security measures that can help to 
prevent terrorist acts or surveillance.
Thank you for including Connors in the seminar.
Very informative.
Good program.
Appreciate being part of the presentation.
Enjoyed it.
Very informative. (2)
Job well done!
Good basic information.
Pass out material before starting.
Pass on current news information, give audience ``inside information'' 
or what they believe is inside information. Stirs interest and 
involvement.
More info on previous terrorist attacks.
Details that tie all this into our everyday jobs/situations.
Good awakening to possibilities.
Needs to be a bit longer.
Very informative.
Very good.
Added July 8
More instruction on developing emergency plans.
Was a good class.
Hand out more reading material.
Very informative.
Have meetings on a regular basis to inform us of latest strategy and 
information available.
I feel a couple more hours would be beneficial.
The instructor had too many ``uhs''.
Mr. Rollins seems to be very knowledgeable and interesting.
Everything was very good. I like the way everything went.
Good job, very informative.
Get Coast Guard more involved.
Good course.
The information was practical and presented to where we can use it at 
our facilities.
Great job.
Exceeded meeting expectations.

                  APPENDIX F--BIOGRAPHICAL INFORMATION

CISR, L.L.C.--John D. Gwin, President
    As a Security Advisor for Exxon & ExxonMobil for 25 years, Gwin has 
conducted hundreds of risk/threat assessments involving inland waterway 
terminals, refinery/chemical plants, marketing (fuel) terminals, 
production facilities, pipeline operations and retail service stations. 
During the same period, he was responsible for conducting 
investigations on behalf of the corporation involving violations of 
corporate policy and/or criminal law. Gwin was a Special Agent of the 
FBI for five years prior to joining Exxon and a Battery Commander in 
the United States Army.
    Prior to retirement in 2001, Gwin's portfolio included 23 
ExxonMobil U.S. manufacturing sites (refineries/chemical plants). He 
conducted threat assessments at these sites using Department of Energy 
Risk Assessment methodology. Gwin has attended numerous training 
programs sponsored by the American Society for Industrial Security 
pertaining to physical security and assessment techniques.
    Gwin has participated in the development and presentation of 
security programs regarding: response plans for bomb threats and 
workplace violence, terrorist threats, substance abuse in the 
workplace, potential labor violence and other criminal activity such as 
armed robbery and kidnapping prevention.

Rollins & Associates, Inc.--E. Avery Rollins, President
    In an FBI career that spanned 31 years, Rollins developed an 
expertise in Middle Eastern Terrorism and bombing matters. Early in his 
career, he completed a year of training in the Arabic language (Iraqi 
dialect) at the US Army Defense Language Institute after which he 
conducted terrorism investigations in New York City and Washington, 
D.C. In 1978 he completed training in Explosive Ordnance Demolition at 
the Hazardous Devices School, Redstone Arsenal. Thereafter, much of his 
work revolved around bombing matters related to domestic and 
international terrorism.
    With the terrorist bombing of the Murrah Federal Building in 
Oklahoma City in April 1995, a building security committee was formed 
at the McCoy Federal Building in Jackson, MS. The committee was 
composed of representatives from each federal agency in the building, 
and representatives of local law enforcement. At the time Rollins was a 
Supervisory Special Agent with the FBI, supervising the Terrorism and 
Bombing Matters programs and was selected Building Security Committee 
Chair. The committee reviewed security procedures in place at the time, 
identified weaknesses in the program and made recommendations for 
improvements to the General Services Administration. He provided 
training in bomb threat, bomb response and building evacuation to 
federal employees.
    After retirement from the FBI, Rollins began providing security 
consulting and investigative services to the private sector. In June 
2002, Rollins completed a six-month project for the Mississippi 
Department of Transportation (MDOT). Rollins was contracted to conduct 
threat assessments and develop security plans for its three 
administrative offices, six district offices, and a representative 
number of its 113 smaller project offices around the state. Threat 
assessments, including nighttime security reviews, were conducted at 29 
offices in Mississippi over the six-month period. The threat 
assessments included a physical site inspection, review of records and 
security procedures, and interviews of MDOT employees at each office. 
District office sites varied in size from 15 acres to over 60 acres. 
Findings, recommendations and specific security plans were prepared for 
the administrative and district offices while generic security plans 
were prepared for the smaller offices.

    Chairman Cox. Thank you to each of our witnesses that are 
here.
    We will now proceed with questions, and I will recognize 
myself for 5 minutes.
    Let me begin, Admiral Duncan, by asking about the portion 
of your testimony concerning the Marine Safety Unit. We toured 
the Grand Gulf facility and met with the people in the security 
center. Are there any maritime security--were there any--.
    Admiral Duncan. There are 15 nuclear power plants. We found 
all to be in compliance with a high level of standard security 
in that it covers the access areas and has the ability to stand 
off if there is some kind of a threat.
    We have identified threats by others and created a system 
that tracks all the--certain dangerous substances.
    Chairman Cox. But was the assessment of this group there is 
a security vulnerability in the Grand Gulf?
    Admiral Duncan. I think we looked at that from a 
vulnerability standpoint, but the report I have on it is we are 
on top of it.
    Chairman Cox. That is what I wanted to know.
    Ms. Swain, in your testimony you said there could be a 
holdup in the Mississippi River for over a year and that that 
could have a global economic impact. You also mentioned the 
threat of a terrorist attempt on a cruise vessel. Would it be 
possible to close the river by that, as opposed to a cargo 
vessel?
    Ms. Swain. Definitely. The type of vessel at the location 
and, specifically, more importantly, like I said, the cruises 
have 3,000 passengers or more and the crew, so you are talking 
about a significant loss of life. And the Coast Guard can 
probably give you more of the terms that goes with the 
referring of a vessel up to that. We had, I think, there the 
river was crossed for 5 days, and that put a cost of $60 
million to ports with 5 days for the closure.
    Chairman Cox. If the ports were to close for as long as 
possible, what would be the modality of that attack? It is 5 
days?
    Ms. Swain. Five days as a result of a vessel accident. A 
larger submarine could be more. And so that vessel that is in 
the river, they come and see where the vessel was and make 
arrangements.
    Chairman Cox. I am concerned about the 5 days. If an 
accident happened, and your testimony is that it could be over 
a year if it was accomplished in a terroristic way, What 
exactly effect would that have as a result of it being closed 
for so long?
    Ms. Swain. Location, location, location. The amount and the 
size of the vessel, and maybe the Admiral can speak to that.
    Chairman Cox. On the size question, is the size of a cruise 
vessel sufficient compared to a cargo in order to accomplish 
that as a result?
    Admiral Duncan. Definitely, it is. Yes, sir.
    Chairman Cox. While I got you, Ms. Swain, I want to ask you 
a question about maritime transportation security in which you 
alluded to in your testimony that you mentioned. I think the 
point of your testimony was the expense of it. But I want to 
ask you this. Can you amend it in any way?
    Ms. Swain. If I have funding so that way we could pay for 
the exercises, which are very expensive. The Port of New 
Orleans is doing a lot of internal training with the Port 
employees; And if we reserve about 50 people, that is when you 
talk about salary and overtime. That is going to be $2,000 for 
administration; and involving all the different people 
responding, EMS and so forth, could triple in cost.
    Chairman Cox. Mr. Heidel, I want to ask you about your own 
inland ports and local authority and maritime. Specifically, 
when something like this happens, do you have the intelligence 
available to you?
    Mr. Heidel. We have gone through extensive training with 
the Coast Guard. They have set the levels, and the information 
was sent to U.S. for review. We are available for alert. Matter 
of fact, we had all of our training that has been completed 
along with your police department and so forth.
    We are in the process now of scheduling another meeting of 
all of our industries, the ones that uses the Port and the ones 
that don't use the Port. But they need to be a support role to 
help assist these that do use the water system. It is training 
that is important, and we have had an analysis done on the 
parts of the area that are sensitive that could be easily be 
entered by terrorists to make sure that those are the gaps that 
we fill in before we move forward.
    Chairman Cox. My time has expired, and I think we will have 
a chance to hear from the Representative from Mississippi.
    Mr. Thompson. Admiral Duncan, given the level of 
requirements placed on you after 9/11, have you had the 
necessary manpower and other resources to do your job in a 
timely manner?
    Admiral Duncan. Thank you for the question, sir.
    My bottom line is, yes. I think, as I sit here, we are able 
to handle risk. You are aware that our budget has reached about 
a 50 percent increase. We have grown fast. We have grown fast, 
and we have a certain quality that we want to maintain, so we 
will make that a priority to maintain that quality.
    Mr. Thompson. Part of the time is that it appears in 
certain security situations you are more or less responding 
because of the time thing, I think, of the Coast Guard's 
response is slower. I guess I am speaking to Ms. Swain, member 
of the committee. The comment you made, I guess, you have to 
respond because it is in the Port. But the question is, is it 
the Port's primary function to respond or are you the 
secondary?
    Ms. Swain. It depends. We have a mandate to respond to 
maritime emergency as well.
    But, on a higher level, if there is a situation of an 
object floating in the river and it starts to become a problem, 
that would be primarily a Coast Guard situation. We have been 
asked to assist and to start our--investigate those kinds of 
incidents, so, therefore, it is why we are asking for access to 
that kind of work, to have that kind of training and put the 
right people on board to conduct those types of investigation.
    Mr. Thompson. If we made funds available to do those 
things, the Port of New Orleans would be available to--.
    Ms. Swain. We would be available. If you are going to give 
it, we will take it, and we will buy vessels with it. I will 
assure it. We see it as a fundamental need.
    When you were talking about putting the cruise vessel on 
the water--around the cruise vessel--the river is large, but 
people come up in and out of it and so forth, and they are not 
Maritime, and they don't understand they have breaches, in a 
sense. But we don't have any vessels of speed or something to 
deter them to keep them out of harm's way from the water. Our 
water side, ours is particularly vulnerable. We have added a 
lot of fencing. We have, so far, the harbor to handle the 
regular land security, but the Port side is something new for 
U.S. And it is nothing--well, I feel we are extremely 
vulnerable.
    Mr. Thompson. Thank you.
    Chairman Cox. The gentleman from Georgia, Mr. Linder, you 
are recognized.
    Mr. Linder. If we were in Memphis, how many carts would it 
take to move through traffic?
    Mr. Heidel. If you are talking about the cargo carrying two 
containers, a barge can carry up to 30 containers, if that 
helps you. And, if so, you can move a lot more cargo by water. 
So, of those 30, you would have to have 15 rail cars to move 
that 30 trucks, if that.
    Mr. Linder. How many containers can go down the river?
    Admiral Duncan. If I may, sir, there are more details in 
the written report. It carries those cargoes through, so that 
is 36,000 barges. That is not--and some of that is the 
dangerous cargo.
    Mr. Linder. What percentage of the Coast Guard is 
Reservist?
    Admiral Duncan. We called about 3 percent of our available 
active Reserve force in this district. We called up, you know, 
somewhere in the order of 1,800. Of that, 300 is active duty. 
We bought them up for a specific period of time.
    Mr. Linder. Do you board beyond the two-mile barrier off 
shore? How far can you go?
    Admiral Duncan. As far as we can reach the vessels.
    Mr. Linder. And in that process, have you all been able to 
interact with the ports and the rivers and have you ever sat 
down to try determine what important things you need to talk 
about to get some kind of idea on how to go about it? You ever 
do that?
    Ms. McGowan. Not exactly in the realms have we done that. 
But in the private sector, from the Coast Guard, we did talk 
about those kind of things; and I talked with my Port people. I 
got a couple of workshops going for free for members and non-
members to help them. Among those people who were there, there 
are all kinds of individuals who came together; and a lot of 
that is summarized in the report that I describe here, too.
    Mr. Linder. Thank you, Mr. Chairman.
    Chairman Cox. Gentleman from North Carolina.
    Mr. Etheridge. Admiral Duncan, you talked about your budget 
has increased about 50 percent and that you rely heavily on 
resources after the 9/11 incident. Earlier, several things 
popped out, and one of them is the use of Reservists. Their 
training is going to vary greatly.
    My question is, what are they taking to inspect, to receive 
and the level and courses and the other parts of that--do you 
have to take a course or is it tapes or whatever the courses 
are to ensure the safety in Greenville, Mississippi?
    Admiral Duncan. Yes, sir, that is a good question that I 
personally want to mention. The Maritime Security folks have 
taken 2 months and went through a specialized applied center. I 
had experienced people who are there that had to go through 2 
months of training on that, also, for specific limitations of 
the regulations.
    Other than those, we were using our military to go through 
like how to operate the load. They have the weapon crew that 
they had in addition to the boats, in general, and focus on the 
time of work that they had to do. So they had to prepare for 
that 24 months, and they had to maintain those areas as we send 
people in and out.
    Mr. Etheridge. But given your answer then, your plan is not 
to have a permanent team but to continue to rotate and use 
Reservists as your personnel.
    Admiral Duncan. No, sir. We have a group of people in the 
Coast Guard in the past to hold many of those positions and, as 
we are growing, we hope to take off with that as quickly as we 
are able to do that.
    Mr. Etheridge. You mentioned a few things where you were 
asked about ships coming in the country. My question is, what 
is the time requirement for barge transporting to submit cargo 
information to the inland area?
    Admiral Duncan. A couple of years ago, that cargo or barge 
had to let U.S. know 4 hours in advance of moving or arriving 
so that we could track the movements on them. I will receive 
the response or the request, and the office faxes it or let 
U.S. know where the operators are, and that gives me--pinpoint 
movements.
    Now the special--this was put in. I keep that. That is 
available any time. And we get that and see and looking at how 
you are planning your day and that is for our safety. So if you 
got Baton Rouge or Vicksburg or any part of the Mississippi, 
you have the intelligence to look at if there are any concerns 
about touring.
    Mr. Etheridge. That raises another question. How clear is 
this system that you are talking about? For example, I want to 
know what it does to track or to prove or--how clear is this 
system that I can't tap into it?
    Admiral Duncan. We recognize a lot of people may want to 
get into it, and we care about who has access to it. These are 
internal records and materials as well, so we are very careful.
    Mr. Etheridge. So the people you share it with, there is 
background and clearance and they are verified.
    Admiral Duncan. I would say in most cases.
    Mr. Etheridge. What does, ``most cases'' mean?
    Admiral Duncan. All, yes, sir. Presently, that is what is 
being done.
    Mr. Etheridge. I guess it is for those other barges that 
are coming in as well. Is that what you are saying?
    Admiral Duncan. I am not--you have got other barges that 
don't have access to that system. They don't get the 
information of what is moving in that river. Is that your 
question?
    Mr. Etheridge. Yes. If you have a hazardous material and 
someone is coming down, you may or may not want them--make sure 
that someone has a checkpoint in place.
    Admiral Duncan. Yes, sir. They carry some AIS or they are 
communicating. So we are not trying to displace the safety 
alert of ships coming around the bend. So there is a safety 
that seeks to prevent those kinds of things being advertised. 
What is in the system is for safety if we want to contact 
anyone.
    Chairman Cox. Any more questions?
    Gentlemen from North Carolina.
    Mr. Etheridge. This is a learning process for me, 
specifically, when it comes down to ports on--not only in 
Mississippi but also ports that are in the region.
    Director Swain, I want to ask this of you, because I know 
there are two things that you spoke about. One, the Department 
of Homeland Security, specifically, and also the government 
accountability saying that the Coast Guard didn't have adequate 
staffing or funding to be able to carry out what was needed to 
be done. I was reading some of your testimony, and I understand 
that many of the people in your Port, even your customers, said 
they will not pay a fee. Can you elaborate about that? Because 
it is not the first time I have heard of boats that say they 
are not going to pay, period.
    Ms. Swain. Well, I think that was because when the Gulf 
Port Association got together--and the reason they got together 
was because they didn't want the Port of New Orleans to have a 
fee for our competitors. So that was the purpose of them doing 
it. So that the fee, today, it would not be a deal breaker for 
getting or losing business.
    If--I am not answering your question, I think.
    Mr. Etheridge. It is not only the responsibility of the 
Federal Government, but it is also a responsibility of everyone 
to be able to do so. And, you know, we don't want to hurt 
anyone. But, at the same time, our neighbors, as it relates to 
portal fees, because of the specific access, how are we going 
to help the business? Because we talk about protecting the 
homeland. It is also affecting the economy, and I don't want to 
put one port at a disadvantage versus another one because it 
will say it is cheaper to go to a port in, like, Tampa versus 
here.
    Ms. Swain. Exactly. That is what we were trying to avoid by 
attaching the fee strictly among our competitors. And I should 
say, it is still out on the port security fee. It was supposed 
to go into effect April 1st. Then I hope we don't delay it for 
another month or so.
    We have been hearing some drum rolls, which is normal and, 
again, ours more adversely because the government has not given 
U.S. the backup or the go-ahead. So that is like at the airport 
and paying security fees. They are in there, and we pay that 
fee, and pretty soon we forget that it is there.
    We find it more--and, again, to put it on cruise passengers 
vessel because, of course, it means that we become less secure 
and because people who travel by cruise line go to a cruise at 
their leisure and not because they have to be someplace.
    Mr. Etheridge. We are going to have a second round, 
correct?
    Chairman Cox. That is correct.
    Time has expired. I left off with you have mentioned some 
things I want to tie together and ask you about.
    You mentioned container shipping and you have also 
criticized the overemphasis of technology at the expense of 
training people and it might not be a multi-agency plan for 
port reservist. I want to ask you a little more in detail, all 
container tracking, when it contains biological weapons, seems 
to be--can you have a deal inside of one of these containers 
that would pick it up?
    Admiral Duncan. The technology we have right now is it can 
go to the second port if it is very busy at moving things 
through the first port.
    Chairman Cox. Thank you.
    I want to go on and ask Dr. McGowan. You tell me a little 
bit more, from your experience, what you mean that some of your 
ports have to be overkill.
    Ms. McGowan. Every meeting that I go to, it just seems like 
we talk about the containers on the inland, containers on 
barges, but not ever are we asked to track containers. That is 
what I am really saying. I am always saying that we taught 
employees how to identify a problem. They really want to learn. 
They want to do right, so to speak. And I felt like they are a 
vast resource you know--and it doesn't matter how much 
education the employee has. To me, doing the right thing was 
all that I wanted to do was learn how. So I don't know if I 
answered that part of your question or not.
    Chairman Cox. Did you--and let me ask you further about 
your understanding. I will ask for your common knowledge. Is 
there, in fact, no comprehensive session multi-agency port 
recovery plan in the United States?
    Ms. McGowan. I have not been told about it. Have you, 
Cynthia?
    Ms. Swain. No.
    Admiral Duncan. I could address a couple of points on that. 
We have quite a responsibility in making sure that that is 
taken care of.
    We have heard Ms. Swain talk about the incident that closed 
the Mississippi River just a year ago. It was concerted in a 
port and all the resources we had to bring that up as quickly 
as possible and re-route the traffic to Gulfport. We received a 
cruise ship that was going through the South, and we put them 
through to a barge.
    Chairman Cox. We have some nods on what you are talking 
about.
    Ms. McGowan. I am looking forward to the draft on the first 
of April.
    Ms. Swain. We get so accustomed to working together, 
sharing things and knowing what each other is doing on a day-
to-day basis, so that when something happens with a barge or a 
carrier or whatever it is, we are able to come together. But it 
still doesn't mean that we don't have a national response plan.
    Chairman Cox. Any questions, Mr. Thompson?
    Mr. Thompson. I have a basic question. I will start with 
you, Admiral Duncan. If we have a major emergency in the port 
along the river, do you have the ability, right now, to talk on 
a radio so that everybody responding to that emergency is on 
the same response?
    Admiral Duncan. That is a growing concern. I can say that 
in some parts we can bring the State of Louisiana in to bring a 
hand.
    We know the people who are operating, we know the State 
agency, we know the Federal agency, and we can pull those 
together. But that is a process that is going take a little bit 
of time to have a very fast response. Is that what you are 
alluding to, sir?
    Mr. Thompson. OK, well, so presently we don't have that 
capability.
    Admiral Duncan. We have some locations that are less than 
others.
    Mr. Thompson. All right. Thank you.
    Do you know if we have that capability in Vicksburg.
    Admiral Duncan. I am not--I can do that, yes, sir. I can't 
answer your question about Mississippi.
    Mr. Thompson. OK. Mr. Heidel, to your knowledge, can we get 
everybody responding on the same frequency?
    Mr. Heidel. I think that we are in the process of making 
that happen. We did have--from the meeting that we had and the 
coordination we have had with the river along with the Coast 
Guard, I would say that we can respond pretty quickly to the 
situation.
    Mr. Thompson. Well, you know, we have got studies that kind 
of say that it is inoperable and inadequate. And that is one of 
the challenges for 9/11, is that the New York Fire Department 
couldn't talk to the New York Police Department; and when it 
did, went out, everyone didn't hear the call.
    So I am wondering--and that sort of leads me to the 
question, is if, in fact, from a first response standpoint 
people are responding, but it is more or less you don't know 
who is there until you get there because you haven't been able 
to talk with anyone. We have tried, when we campaign, to get 
everybody on the same frequency, not only who is helping you 
and the people, but you also know who is coming. I guess what I 
hear is that is a work in progress. Is it?
    Ms. Swain. It has been a work in progress for many years, 
and we are beginning to work around with these gentlemen in 
patchwork. The harbor has a different radio. We can, at least, 
talk to one another. If you create a NIMS incident for the 
different agencies, then you can pair a harbor, both together, 
and see that everybody can get the word. So it is kind of 
patchwork and make sure--and a lot of the problems with that is 
it costs money to do it and they don't want to give U.S. their 
system and put up firewall and all of this and things like 
that.
    Mr. Thompson. One of the things--and not to cut you off, 
but one of the things we have out here and depending on is this 
radio to do all of this. But the issue is, can we make the 
technology so we don't have to buy radios to communicate?
    Admiral Duncan. I may have sent you the wrong way when I 
answered with the response of it is either side of the levy. 
There is a little more to that, and it needs to take a little 
more time to think about. If somebody is on the same radio, 
yeah, you can't hear anybody talking. Although we had radio, 
yeah, that we worked with each other, we put--that wouldn't 
discover the navigation. So it is little more complicated that.
    Mr. Thompson. One more question. Do we have that in place 
right now?
    Admiral Duncan. The NIMS?
    Mr. Thompson. What you have described, do we have that in 
place right now?
    Admiral Duncan. To answer your question in the context, 
there was a--oh, here? Yes, sir.
    I think we would come together very quickly by sending in a 
PFO principal to manage that Federal response so that there is 
a linkage between U.S. and the Federal response.
    Mr. Thompson. Maybe I am not asking it right. I guess, if 
an emergency occurred today, is the NIMS operational for 
Vicksburg, Warren County?
    Admiral Duncan. I believe it is, sir. I think we know the 
people in the area and we can come together very quickly.
    Chairman Cox. Gentlemen from Georgia.
    Mr. Linder. The Admiral, in talking about sharing 
information between ships, you said, we have intelligence. Tell 
me, where do you get your intelligence?
    Admiral Duncan. We have own intelligence in different 
places, and we also tie all the NIMS communications together, 
and we reach those sources as well.
    The other side is how we use that. How do we get that to 
people? Because most of this is private and you are operating 
out of a refinery and I would like that--that comes out of the 
intelligence arena, and I would like you to be aware of that so 
you can organize ineffective, effective ways. There are 
security information methods for doing that as well.
    Mr. Linder. Thank you.
    You or your people with whom you work, what are the risks? 
Is the risk as much as the risk might be in New York City? Have 
you ever sat down and thought about that? That is what we are 
challenging here this morning. Have you done that?
    Ms. McGowan. Not in the way that you have just outlined.
    My knowledge, just working in it, the Coast Guard and the 
Maritime Administration is--if in the event they got together 
and joined their resources--there was a study done, and it 
studied one of our ports of Louisiana with one of the ports of 
Memphis; and because the inland port and terminal is not a 
port, we could not get any, even for this little test thing, to 
see if we could do what we needed to be doing.
    Mr. Linder. When the Coast Guard and the Maritime folks get 
together from the department to tell the risk, do they 
determine that the port is more vulnerable than the other port 
and can they tell at a certain point?
    Ms. McGowan. That would be Mr. Murphy working together in 
the Central Region at that time on those port securities, if 
they are able to.
    Chairman Cox. Gentleman from North Carolina.
    Mr. Etheridge. I am going to talk to you a little bit about 
a question that was raised that I can get better educated about 
it. I noticed yesterday that the river that is along--more than 
any other place in America, and they wind up at the New Orleans 
Port. And we have talked about the funding. When we look at 
funding to all the others--this deals with cargo of that type--
are we just looking at shipping, the risk that comes in and as 
it relates to the funding for the security issues for homeland 
security?
    Admiral Duncan. I started responding to that, sir. All the 
ports are at the front end of system to make sure that, 
roughly, all parts are secure and safe.
    Mr. Etheridge. Then that leads to another question. I think 
it gets to something Ms. Swain said, and we may have touched on 
that. If we go looking only at the--if you are looking at those 
high-profile cargoes, then you ignore all the other pieces. My 
question is, if we don't--how do we make this really work, not 
just the shipping of it?
    Who wants to take on that.
    Ms. Swain. Well, I don't know about--you can spend a lot of 
money and we can spend an extra amount to sort them out. If I 
were to say, I am looking for a creative solution, once we 
figure it out, you know, and do it short term, we can do it in 
many other places. And when one fails, it fails, and we move 
onto the next one. To me, it is not just more fence and more 
cameras. That is my solution.
    Admiral Duncan. I know that the department is looking at 
these issues presently and has done something. I think we 
touched on some of these here today. So it is a lot to grasp 
when I go around and hear about who is getting more money than 
others.
    From my knowledge and standpoint, the importance of 
security awareness is at stake. The country--every American is 
part of this. We know that if we catch a man in a suit out 
fishing, they know that people shouldn't be out fishing in a 
suit, and they are going to call somebody, and it makes U.S. 
aware of things like that. But I really think it is most 
important of getting this right.
    It makes our job all the better. It is very important to 
get an all-out awareness going. Because we would still have 
people forget and put a weapon in their luggage and get on the 
cruise liner. Nobody forgets that they are not supposed to take 
a gun on a plane. And, again, it is the same, that the ports 
are less vulnerable, but it is a reality thing.
    Chairman Cox. We are going to let the gentleman from 
Florida ask questions.
    Mr. Meek. I would like to yield my time to Mr. Thompson.
    Mr. Thompson. Thank you very much.
    I guess the question is, Ms. Swain, you indicated that 
sometimes you have to respond to emergencies in the Port of the 
New Orleans. Sometimes it takes about an hour to get a Coast 
Guard present. I am wondering, if a similar emergency occurred 
in Vicksburg, how long would it take to get a Coast Guard 
present.
    Mr. Heidel. Presently, we have located--our port Coast 
Guard feels they respond pretty fast to what is going on. We 
also are fortunate enough, as I said earlier, to have the 
Sheriff's Department there, which mobilizes the help in those 
emergencies, also.
    Mr. Thompson. I guess--can we have that in New Orleans?
    Admiral Duncan. Sir, I would have to check on that. I 
really don't think it takes an hour to get a Coast Guard. I 
have to go back and see why it would take an hour. That is an 
unusual number.
    Mr. Thompson. I am sure you can get that information from 
Ms. Swain.
    Ms. Swain. Be happy, too.
    Mr. Thompson. We are here to talk about that. One of my 
concerns is, if we have a unit in Baton Rouge and a unit in 
Memphis and a certain kind of emergency occurs, how--I am just 
wondering how would we accommodate, today, that in between?
    Admiral Duncan. We have a present system in every place to 
quickly respond.
    Mr. Thompson. I guess someone would have to come from Baton 
Rouge, and we don't have any in Vicksburg.
    Mr. Heidel. We have boats on the water in both of those 
places. We have a presence there. It may not be a boat 
response. It might be a different type of response or from 
another agency. Am I being correct, by my sheriff out there, 
for presence out there? He would know better than me.
    Presently, the Coast Guard does not monitor the Port. The 
Sheriff's Department does the monitoring.
    Mr. Thompson. We have got the Sheriff here.
    One other question, Admiral Duncan, since the Coast Guard 
have primary response, have you received the security plan for 
all the ports along the river?
    Admiral Duncan. My staff does. Yes, we do receive them.
    Mr. Thompson. You receive them. Have you now taken the plan 
and gone to the ports to see, actually, what was on the plan is 
actually there?
    Admiral Duncan. Yes, sir.
    Mr. Thompson. So there is nothing that has not been 
verified?
    Admiral Duncan. To my understanding, we verify what is in 
those plans, sir.
    Ms. Swain. They verify and verified it twice. That is why 
they have no shortage of staff. There was a verification at our 
port, approved the plan, and then there is verification that is 
going on afterward with that. That is why we have to make--we 
have to get better maps, because they were OK for acceptance. 
When we look at that opportunity, how we read them, we see it 
is a dynamic working document. We check that when they are 
coming back and make changes but verify it, they do.
    Admiral Duncan. That was part of those Reservists.
    Chairman Cox. Does any other member of the panel have any 
further questions and want to be recognized for closing 
statements?
    Gentlemen from North Carolina.
    Mr. Etheridge. I would like to thank the folks here, and 
let me thank you for inviting US to Mississippi and, 
specifically, to Vicksburg, My first trip back from a number of 
years ago. I appreciate your hospitality, your testimony today. 
The information we gained will certainly be available, I assure 
you. I have learned a great deal about inland ports. Thank you.
    Thank you, Mr. Chairman.
    Chairman Cox. Gentleman from Florida.
    Mr. Meek. I want to thank everyone. I have learned quite a 
bit. Thanks to Vicksburg, all of the elected leaders of this 
fine city, to the people and to the people who are trying to 
make this community stronger. And, also, Mr. Chairman, to the 
historical as it relates to the committee. This is a major part 
of our planning. It is important that we educate ourselves on 
these issues and the needs of the community as we learn how to 
protect them. If we do our jobs better, then we can help them 
to make their jobs better on the home front.
    Chairman Cox. I am going to make a pronouncement at this 
time, but I want to thank you very much for the education on 
our ports that you provided to U.S..
    Second, I want to thank the witnesses for coming out and 
educating this committee. We have learned a lot today. I have 
to say that when you see how hard people work, how dedicated 
people are, we have a lot to be proud of. To do security, on 
top of that smiling and, most importantly, sharing information. 
Working has never been--I think we are going to be very, very 
successful as a result of coming together to discuss this 
matter for our future. That is why we spend the extra money on 
training, so that we know the technology, not just because of 
the money we are spending on security but rather the 
productivity.
    Thank all of you for your education and also to the 
Vicksburg community, and I appreciate your being in Vicksburg 
and the Representative.
    We are very, very glad to have closing remarks at this 
time.
    Mr. Thompson. Let me thank the witnesses. You have been 
very good, very thorough and very subjectively put issues out 
front.
    For the sake of the audience and these members of the 
committee to my left, I want to thank them for not postponing 
the hearing and making the efforts to be in attendance; and I 
thank the audience for coming and just the whole Vicksburg, 
Warren County area for being here. As the Admiral said, today, 
to whatever extent, it really boils down all of U.S. being a 
little more aware about our surroundings and what we say, not 
crying wolf all of the time. You need to let someone know so it 
could be checked.
    The responsibility is a task. 9/11 changed the plot in the 
country, that we will never be the same. I am reminded every 
time I go to the airport that it is either that fingernail file 
or something I should have left or I got the wrong pair of 
shoes on and got to take them off. But it will never be the 
same.
    So I appreciate the Chairman for agreeing to have the 
hearing, and I also echo the statements of the committee 
members that we need to do this as often as we can so that we 
get a feel for what is going on. So, again, Mr. Chairman, thank 
you very much for spending time in Vicksburg, Mississippi.
    Chairman Cox. I thank the gentlemen.
    There is nothing further. This field hearing of the 
Homeland Security Committee is now adjourned.
    [Whereupon, at 11:16 a.m., the committee was adjourned.]


                            A P P E N D I X

                               ----------

                   Material Submitted For the Record

               Questions and Responses of the Coast Guard

             VESSEL AND FACILITY SECURITY PLAN INSPECTIONS

Question: The Government Accountability Office (GAO) issued a June 2004 
report about the Coast Guard's inspection of vessel and facility 
security plans required by the Maritime Transportation Security Act of 
2002 or MTSA. The report stated that the Coast Guard will face numerous 
short and long term challenges. The first challenge is the sheer number 
of security plans that must be inspected; according to GAO the Coast 
Guard plans to inspect over 3,000 port facilities and 9,000 vessels to 
ensure that owners and operators are compliant with their security 
plans. The second challenge that faces the service is the number of 
Coast Guard personnel able to conduct the inspections. I understand 
that the service has leaned heavily on it reserve force since 9/11, 
which is a nice resource to call on for a temporary basis, but I 
believe the Coast Guard is going to have long term staffing needs to 
enforce the MTSA. What steps has the Coast Guard taken to ensure that 
you have enough personnel to conduct MTSA security plan verifications?
Answer: The 2005 enacted budget provided funding for 791 personnel and 
associated support funds for MTSA enforcement. The fiscal year 2006 
budget requests an additional $31 million to fully-annualize the 
additional staff hired to ensure MTSA enforcement.
    As an interim measure while those positions are filled, the Coast 
Guard employed Title-l0 Coast Guard Reservists and contractor personnel 
to achieve MTSA implementation and enforcement milestones. The Coast 
Guard developed and implemented training programs to provide its 
personnel with the requisite knowledge and skill to conduct facility 
and vessel security inspections.Ongoing field level training in 
accordance with established requirements continues to provide an 
increasing base of qualified security inspectors necessary to maintain 
the program. The Coast Guard's classroom training curricula, which 
provides the basic training to new personnel entering the field, has 
also been updated to reflect the new requirements and ensure new 
personnel arrive at field units with appropriate preparation to perform 
these functions.
    The Coast Guard has completed the initial review and approval of 
over 3,000 facility and 11,000 vessel security plans. With this initial 
surge of activity complete, the Coast Guard is now transitioning to a 
steady state of MTSA operations and enforcement. Reservists recalled in 
support of MTSA implementation will be demobilized by the end of fiscal 
year 2005, but will continue to augment active duty forces during 
regular drills and through the Active Duty Special Work-Active 
Component (ADSWAC) program as needed to support all Coast Guard 
missions.

                   IRVMC DISSEMINATION OF INFORMATION

Question: The Coast Guard established the Inland River Vessel Movement 
Center to gather and track information barges loaded with Certain 
Dangerous Cargoes (CDCs) along the Western Rivers. What is the time 
requirement for barge operators transporting CDCs to submit their cargo 
information to the Inland River Vessel Movement Center? Where does the 
information collected by the center get disseminated to?
Answer: Barge operators are required to submit information to the 
Inland River Vessel Movement Center (IRVMC) four hours before the barge 
carrying the CDC is added to the tow of the vessel. Barge operators 
(when moving barges with CDCs) are also required to report their 
position to the IRVMC at approximately 100 designated checkpoints 
throughout the Inland River System. The IRVMC then posts this 
information electronically, providing a Common Operational Picture 
(COP) to District Eight Inland River and Coastal Captains of the Port. 
Additionally, the Captain of the Port in Chicago (Ninth Coast Guard 
District) receives the same COP tracks. All Captains of the Ports use 
this information to continually track movement of the CDCs through 
their area of responsibility and to target vessels transiting their 
areas for escorts, boardings, etc.

                     EXERCISE AFTER-ACTION REPORTS

Question: The GAD issued a report in January in response to a request 
from Ranking Member Thompson about the use of terrorism exercises to 
coordinate effective seaport security procedures. The GAD stated that 
the Coast Guard's after action reports from port terrorism exercises 
were either late or not sent at all. The report also stated that the 
content of the after-action reports submitted by the Coast Guard was 
insufficient to incorporate lessons learned for future exercises. What 
steps has the Coast Guard taken to ensure that local units are 
submitting thorough after-action reports in a timely fashion?
Answer: The Coast Guard acknowledges the need to improve the After-
Action Reporting (AAR) system. Improving AARs will be one of the 
Commandant's top priorities in the fiscal year 2006 Contingency 
Planning Guidance to operational commanders. Additionally, increased 
emphasis is being placed on AARs in the Coast Guard's primary 
Contingency Planner/Exercise Planner training course. A core group of 
individuals are also being certified as Master Exercise Practitioners 
with increased expertise in the development of AARs and lessons 
learned.

                 CG RESOURCE LEVERAGING OF SMALL BOATS

Question: The Coast Guard's Deepwater program has received a great deal 
of attention since 9/11 due to the fact that the Coast Guard's fleet of 
cutters and aircraft need to be replaced. Looking at the background 
information provided by the Coast Guard, the six Marine Safety Offices 
on the Western Rivers have a total of 19 small boats. How is the Coast 
Guard leveraging resources to ensure there are enough small boats for 
the Coast Guard to perform all of its missions?
Answer: Over the past three years, the Coast Guard has added over 170 
new Response Boat Smalls (RB-S) and crews throughout the nation to 
perform all Coast Guard missions. In the President's Fiscal Year 2006 
budget Request, the Coast Guard is requesting 14 additional RB-S's and 
crews. These boats are highly capable and well suited for the inland 
rivers.
    In fiscal year 2005, the Coast Guard plan to establish a Security 
Patrol Detachment (SPD) in Huntington, WV, as a prototype program to 
address the geographically and mission unique requirements on the 
inland rivers. As this pilot project yields a better understanding of 
inland river operations, the Coast Guard will review its resource 
allocation in other strategic ports on the inland river network.

Question: The Coast Guard just established a prototype river security 
team at the Marine Safety Office in Huntington, West Virginia. This 
team will perform the function of the Marine Safety and Security Teams 
or MSSTs deployed to large coastal ports whose primary mission is 
deter, protect, and respond to maritime security incidents at large 
river ports. Do you know if the Coast Guard intends to deploy teams to 
other inland river ports?
Answer: Given the geography and unique local features of the inland 
river system for over 10,000 nautical miles of navigable waterways, the 
MSST is not the best operational solution.
    In fiscal year 2005, the Coast Guard plans to establish a Security 
Patrol Detachment (SPD) in Huntington, WV, as a prototype program to 
address the geographically unique security requirements on the inland 
rivers. As this pilot project yields a better understanding of inland 
river operations, the Coast Guard will review its resource allocation 
in other strategic ports on the inland river network.
    The Coast Guard has deployed MSSTs on four occasions to the inland 
river ports of Memphis, TN and St. Louis, MO to meet temporary 
operational requirements. Future deployments of MSSTs will be based on 
a combination of port activity, threat analysis, and intelligence.

                                 <all>

</pre></body></html>
